Department of Defense

AGENCY FINANCIAL
REPORT FOR
FISCAL YEAR 2009

ADDENDUM A
FINANCIAL INFORMATION




November 16, 2009
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         1
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         2
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         3
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         4
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         5
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         6
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         7
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         8
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         9
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         10
Department of Defense Agency Financial Report for FY 2009




ADDENDUM A                                                  Financial Information
                                         11
Department of Defense Agency Financial Report for FY 2009
PRINCIPAL FINANCIAL STATEMENTS                                   both the proprietary (federal accounting
AND NOTES                                                        standards) and budgetary resources of the
The financial statements of the Department                       Department. The Department is large and
include four principal statements listed in                      complex with an asset base of $1.8 trillion, and
Figure 2-1.                                                      more than 3 million military and civilian
                                                                 employees on installations in every state and
The financial statements reflect the aggregate                   around the world.
financial posture of the Department and include


 Figure 2-1. Four Principal Financial Statements
 Statement               What Information It Provides
 Balance Sheet           Reflects the Department’s financial position as of the statement date (September 30, 2009). The
                         assets are the amount of future economic benefits owned or managed by the Department. The
                         liabilities are amounts owed by the Department. The net position is the difference between the
                         assets and liabilities.
 Statement of Net Cost   Shows separately the components of the net cost of the Department’s operations for the period. Net
                         cost is equal to the gross cost incurred by the Department less any exchange revenue earned from
                         its activities.
 Statement of Changes    Presents the sum of the cumulative results of operations since inception and unexpended
 in Net Position         appropriations provided to the Department that remain unused at the end of the fiscal year. The
                         statement focuses on how the net cost of operations is financed. The resulting financial position
                         represents the difference between assets and liabilities as shown on the consolidated balance sheet.
 Statement of            Provides information about how budgetary resources were made available as well as their status at
 Budgetary Resources     the end of the period. It is the only financial statement exclusively derived from the Department’s
                         budgetary general ledger in accordance with budgetary accounting rules.




ADDENDUM A                                                                                         Financial Information
                                                            12
Department of Defense Agency Financial Report for FY 2009

 Department of Defense Consolidated Balance Sheet
 Agency Wide                                                                                    Dollars in Millions
                                                                                                 Restated
                                                                                2009              2008
                                                                             Consolidated      Consolidated
 ASSETS (Note 2)
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                       $    502,754.3      $    468,396.9
   Investments (Note 4)                                                           434,884.0           394,508.5
   Accounts Receivable (Note 5)                                                     1,219.6             1,326.2
   Other Assets (Note 6)                                                            2,594.7             1,282.9
   Total Intragovernmental Assets                                            $    941,452.6      $    865,514.5
 Cash and Other Monetary Assets (Note 7)                                            2,316.8             2,804.8
 Accounts Receivable, Net (Note 5)                                                  8,234.1             7,825.3
 Loans Receivable (Note 8)                                                            398.5               236.0
 Inventory and Related Property, Net (Note 9)                                     228,796.6           233,586.6
 General Property, Plant and Equipment, Net (Note 10)                             559,614.3           506,953.6
 Investments (Note 4)                                                               2,017.1             1,861.5
 Other Assets (Note 6)                                                             56,637.5            55,829.4
 Stewardship Property, Plant & Equipment (Note 10)
 TOTAL ASSETS                                                                $ 1,799,467.5       $ 1,674,611.7

 LIABILITIES (Note 11)
 Intragovernmental:
   Accounts Payable (Note 12)                                                $     2,207.8       $     1,687.4
   Debt (Note 13)                                                                    391.7               262.6
   Other Liabilities (Note 15)                                                    11,485.7            12,047.0
   Total Intragovernmental Liabilities                                       $    14,085.2       $    13,997.0
 Accounts Payable (Note 12)                                                       35,519.8            32,622.8
 Military Retirement and Other Federal Employment Benefits (Note 17)           2,012,166.1         1,984,605.4
 Environmental and Disposal Liabilities (Note 14)                                 66,230.0            70,505.9
 Loan Guarantee Liability (Note 8)                                                    21.1                24.5
 Other Liabilities (Note 15)                                                      33,839.9            34,107.6
 Commitments & Contingencies (Note 16)
 TOTAL LIABILITIES                                                           $ 2,161,862.1       $ 2,135,863.2

  NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)                      $           5.6    $           4.9
  Unexpended Appropriations - Other Funds                                          504,339.3          472,983.4
  Cumulative Results of Operations - Earmarked Funds                           (1,342,858.4)      (1,345,925.0)
  Cumulative Results of Operations - Other Funds                                   476,118.9          411,685.2
  TOTAL NET POSITION                                                          $ (362,394.6)      $ (461,251.5)

  TOTAL LIABILITIES AND NET POSITION                                          $ 1,799,467.5      $ 1,674,611.7




The accompanying notes are an integral part of these financial statements.


ADDENDUM A                                                                               Financial Information
                                                                        13
Department of Defense Agency Financial Report for FY 2009

 Department of Defense Consolidated Statement of Net Cost
 Agency Wide                                                                                   Dollars in Millions
                                                                                                Restated
                                                                                2009             2008
                                                                             Consolidated     Consolidated
 Program Costs
 Gross Costs                                                                   $ 697,813.3      $    726,427.3
         Military Retirement Benefits                                              87,880.4          160,282.8
         Civil Works                                                               11,712.0             8,849.4
         Military Pay & Benefits                                                 144,750.6           137,701.7
         Family Housing & Facilities                                               11,639.6             9,326.0
         Operations, Readiness & Support                                         268,007.0           251,313.0
         Strategic Modernization                                                 173,823.7           158,954.4
   (Less: Earned Revenue)                                                        (46,167.9)          (56,272.5)

            Military Retirement Benefits                                          (4,313.9)          (24,099.5)

            Civil Works                                                           (1,657.1)            (1,339.0)
            Military Pay & Benefits                                               (1,019.4)              (976.3)

            Family Housing & Facilities                                           (7,465.5)            (5,919.4)

         Operations, Readiness & Support                                         (18,349.5)          (11,503.1)
         Strategic Modernization                                                 (13,362.5)          (12,435.2)
  Net Cost of Operations                                                       $ 651,645.4      $    670,154.8




The accompanying notes are an integral part of these financial statements.


ADDENDUM A                                                                              Financial Information
                                                                        14
Department of Defense Agency Financial Report for FY 2009

 Department of Defense Consolidated Statement of Changes in Net Position
 Agency Wide
                                                                                                                                                                                                                                Dollars in Millions
                                                                                                                                                                                            Restated                                 Restated
                                                                                  2009                  2009                 2009               2009                2008                                           2008
                                                                                                                                                                                              2008                                    2008
                                                                             Earmarked Funds      All Other Funds        Eliminations        Consolidated      Earmarked Funds                                 Eliminations
                                                                                                                                                                                        All Other Funds                            Consolidated

   Cumulative Results Of Operations
   Beginning Balances                                                         $   (1,259,693.0)   $     335,935.7    $              0.0      $   (923,757.3)    $       (1,211,821.2)    $    285,681.6    $              0.0     $         (926,139.6)
   Prior Period Adjustments:
      Changes in accounting principles                                                     0.0            1,689.6                   0.0             1,689.6                      0.0                 0.0                  0.0                        0
      Corrections of errors                                                                0.0          (10,482.5)                  0.0           (10,482.5)                     0.0           (9,284.3)                  0.0                 (9,284.3)
   Beginning balances, as adjusted                                            $   (1,259,693.0)   $     327,142.8    $              0.0      $   (932,550.2)    $       (1,211,821.2)    $    276,397.3    $              0.0     $         (935,423.9)


   Budgetary Financing Sources:
      Appropriations used                                                                  3.8          708,653.2                   0.0           708,657.0                      3.2          656,324.9                   0.0                656,328.1
      Nonexchange revenue                                                              2,767.7              (13.7)                  0.0             2,754.0                  3,634.8               84.6                   0.0                   3,719.4
      Donations and forfeitures of cash and cash equivalents                              38.0                0.2                   0.0                38.2                     34.1                 0.0                  0.0                      34.1
      Transfers(in/out without reimbursement)                                           (836.7)             930.9                   0.0                94.2                   (718.6)             877.6                   0.0                    159.0
      Other                                                                                0.0               (4.2)                  0.0                (4.2)                     0.0               (1.0)                  0.0                     (1.0)
   Other Financing Sources (Non-Exchange)
      Donations and forfeitures of property                                                0.7                1.5                   0.0                 2.2                      0.0                 1.5                  0.0                       1.5
      Transfers(in/out without reimbursement )                                           (88.2)              45.4                   0.0               (42.8)                  (436.1)             384.9                   0.0                    (51.2)
      Imputed financing                                                                    0.0           17,017.3              12,313.5             4,703.8                      0.0           16,098.1              11,923.2                   4,174.9
      Other                                                                              (19.4)           1,273.1                   0.0             1,253.7                    (12.1)           6,986.2                   0.0                   6,974.1
   Total Financing Sources                                                    $        1,865.9    $     727,903.7    $         12,313.5      $    717,456.1         $        2,505.3     $    680,756.8        $     11,923.2         $      671,338.9
   Net Cost of Operations                                                             (5,561.6)         669,520.5              12,313.5           651,645.4                 50,377.1          631,700.9              11,923.2                670,154.8
   Net Change                                                                 $        7,427.5    $      58,383.2    $              0.0      $     65,810.7         $      (47,871.8)    $     49,055.9    $              0.0         $         1,184.1
   Cumulative Results of Operations                                           $   (1,252,265.5)   $     385,526.0    $              0.0      $   (866,739.5)        $ (1,259,693.0)      $    325,453.2    $              0.0         $     (934,239.8)


   Unexpended Appropriations
   Beginning Balances                                                                      4.9          446,864.3                   0.0           446,869.2                      8.1          378,190.7                   0.0                378,198.8
   Prior Period Adjustments:
      Correction of Error                                                                  0.0           26,119.1                   0.0            26,119.1                      0.0           20,021.9                   0.0                  20,021.9
   Beginning balances, as adjusted                                            $            4.9    $     472,983.4    $              0.0      $    472,988.3         $            8.1     $    398,212.6    $              0.0         $      398,220.7


   Budgetary Financing Sources:
      Appropriations received                                                              4.5          754,440.5                   0.0           754,445.0                      0.0          742,587.3                   0.0                742,587.3
      Appropriations transferred (in/out)                                                  0.0             (188.4)                  0.0              (188.4)                     0.0             (434.4)                  0.0                   (434.4)
      Other adjustments                                                                    0.0          (14,243.0)                  0.0           (14,243.0)                     0.0          (11,057.2)                  0.0                (11,057.3)
      Appropriations used                                                                 (3.8)        (708,653.2)                  0.0          (708,657.0)                    (3.2)        (656,324.9)                  0.0               (656,328.1)
   Total Budgetary Financing Sources                                          $            0.7    $      31,355.9    $              0.0      $     31,356.6         $           (3.2)    $     74,770.8    $              0.0         $        74,767.6
   Unexpended Appropriations                                                  $            5.6    $     504,339.3    $              0.0      $    504,344.9         $            4.9     $    472,983.4    $              0.0         $      472,988.3
   Net Position                                                               $   (1,252,259.9)   $     889,865.3    $              0.0      $   (362,394.6)        $ (1,259,688.1)      $    798,436.6    $              0.0         $     (461,251.5)




The accompanying notes are an integral part of these financial statements.


ADDENDUM A                                                                                                                                                                                                                                Financial Information
                                                                                                                                        15
Department of Defense Agency Financial Report for FY 2009

                                                                              Budgetary                        Nonbudgetary
Department of Defense Combined                                            Financing Accounts                Financing Accounts
Statement Of Budgetary Resources
Agency Wide                                                                               Restated                      Restated
Dollars in Millions
                                                                        2009                2008             2009         2008
                                                                      Combined            Combined         Combined     Combined
Budgetary Resources
Unobligated balance, brought forward,
                                                                      $      135,669.8    $   111,980.6 $       26.3    $    25.5
October 1
Recoveries of prior year unpaid obligations                                    63,272.9        49,744.1         47.5          0.0
Budget authority
 Appropriation                                                               855,564.3        859,403.8          0.0          0.0
 Borrowing authority                                                               0.0              0.0         58.4        130.0
 Contract authority                                                           67,626.3         78,927.8          0.0          0.0
Spending authority from offsetting collections
 Earned:
   Collected                                                                 178,143.5        174,493.0         45.1         53.9
   Change in receivables from federal sources                                  1,188.4            791.8          0.0          0.0
  Change in unfilled customer orders:
    Advance received                                                        1,031.0               753.2           0.0         0.0
    Without advance from federal sources                                      (88.3)            5,679.1        (10.8)        12.6
  Expenditure transfers from trust funds                                      862.5               766.0           0.0         0.0
  Subtotal                                                            $ 1,104,327.7       $ 1,120,814.7 $        92.7   $   196.5
Nonexpenditure transfers, net, anticipated
                                                                                 (15.7)          (264.1)         0.0          0.0
and actual
Temporarily not available pursuant to
                                                                             (39,190.4)       (59,949.4)         0.0          0.0
Public Law
Permanently not available                                                 (85,969.3)          (85,156.8)        (0.1)       (27.6)
Total Budgetary Resources                                             $ 1,178,095.0       $ 1,137,169.1 $      166.4    $   194.4
Status of Budgetary Resources
Obligations incurred:
 Direct                                                                   848,896.2           811,662.0        142.7        168.1
 Reimbursable                                                             183,271.6           189,837.4          0.0          0.0
 Subtotal                                                             $ 1,032,167.8       $ 1,001,499.4 $      142.7    $   168.1
Unobligated balance:
 Apportioned                                                              128,048.6           120,047.8          0.3          0.3
 Exempt from apportionment                                                  3,373.5             1,060.7          0.0          0.0
 Subtotal                                                             $ 131,422.1         $ 121,108.5 $          0.3    $     0.3
Unobligated balance not available                                          14,505.1            14,561.2         23.4         26.0
Total status of budgetary resources                                   $ 1,178,095.0       $ 1,137,169.1 $      166.4    $   194.4




The accompanying notes are an integral part of these financial statements.


ADDENDUM A                                                                                                   Financial Information
                                                                          16
Department of Defense Agency Financial Report for FY 2009

                                                                             Budgetary                         Nonbudgetary
 Department of Defense Combined                                          Financing Accounts                 Financing Accounts
 Statement of Budgetary Resources
 Agency Wide                                                                             Restated                       Restated
 Dollars in Millions
                                                                        2009               2008           2009            2008
                                                                      Combined           Combined       Combined        Combined
 Change in Obligated Balance:
 Obligated balance, net
  Unpaid obligations, brought forward,
  October 1                                                                  432,118.5     372,558.6           872.9         768.0
  Less: Uncollected customer payments from
                                                                         (66,602.2)        (60,131.3)         (143.0)       (130.4)
  federal sources, brought forward, October 1
  Total unpaid obligated balance                                      $ 365,516.3        $ 312,427.3    $       729.9   $    637.6
 Obligations incurred net                                              1,032,167.8       1,001,499.4            142.7        168.1
 Less: Gross outlays                                                   (946,940.6)        (892,195.4)         (197.7)        (63.2)
 Less: Recoveries of prior year unpaid
                                                                         (63,272.9)        (49,744.1)          (47.5)          0.0
 obligations, actual
 Change in uncollected customer payments
                                                                             (1,100.0)      (6,470.9)           10.8         (12.6)
 from federal sources
 Obligated balance, net, end of period
  Unpaid obligations                                                         454,072.8     432,118.5           770.4         872.9
  Less: Uncollected customer payments
                                                                         (67,702.2)        (66,602.2)         (132.2)       (143.0)
  from federal sources
  Total, unpaid obligated balance, net,
                                                                      $ 386,370.6        $ 365,516.3    $      638.2    $    729.9
  end of period
 Net Outlays
 Net Outlays:
  Gross outlays                                                          946,940.6          892,195.4          197.7           63.2
  Less: Offsetting collections                                         (180,037.1)        (176,012.2)          (45.1)        (53.9)
  Less: Distributed offsetting receipts                                 (65,912.1)         (70,247.6)             0.0           0.0
  Net Outlays                                                         $ 700,991.4        $ 645,935.6    $      152.6    $       9.3




The accompanying notes are an integral part of these financial statements.


ADDENDUM A                                                                                                   Financial Information
                                                                        17
Department of Defense Agency Financial Report for FY 2009

Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of Defense, as required by the Chief Financial Officers Act of
1990, expanded by the Government Management Reform Act of 1994, and other appropriate
legislation. The financial statements have been prepared from the books and records of the
Department in accordance with and to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board, the
Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements, and the DoD Financial Management Regulation. The accompanying financial
statements account for all resources for which the Department is responsible unless otherwise
noted. Information relative to classified assets, programs, and operations is excluded from the
statements or otherwise aggregated and reported in such a manner that it is not discernable.
The Department is unable to fully implement all elements of USGAAP and OMB Circular No.
A-136 due to limitations of financial and nonfinancial management processes and systems that
support the financial statements. The Department derives reported values and information for
major asset and liability categories largely from nonfinancial systems, such as inventory and
logistics systems. These systems were designed to support reporting requirements for
maintaining accountability over assets and reporting the status of federal appropriations rather
than preparing financial statements in accordance with USGAAP. The Department continues to
implement process and system improvements addressing these limitations.
The OMB requires financial statements of the following Department reporting activities to
undergo audits: Army General Fund, Army Working Capital Fund, Navy General Fund, Navy
Working Capital Fund, Air Force General Fund, Air Force Working Capital Fund, Military
Retirement Fund, and U.S. Army Corps of Engineers (Civil Works).
In addition, the Department requires the Medicare-Eligible Retiree Health Care Fund, Marine
Corps General and Working Capital Funds, and the following Defense Agencies to prepare
internal stand-alone auditable financial statements: Defense Logistics Agency, Defense Finance
and Accounting Service, Defense Information Systems Agency, Defense Contract Audit
Agency, Defense Commissary Agency, Defense Security Service, Defense Threat Reduction
Agency, Defense Advanced Research Projects Agency, Chemical and Biological Defense
Program, Missile Defense Agency, Services Medical Activity, TRICARE Management Activity,
and U.S. Special Operations Command.
The Department has 13 auditor-identified material weaknesses: (1) Financial Management
Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Inventory; (5) Operating
Materiel and Supplies; (6) General Property, Plant, and Equipment; (7) Government-Furnished
Materiel and Contractor-Acquired Materiel; (8) Accounts Payable; (9) Environmental Liabilities;
(10) Statement of Net Cost; (11) Intragovernmental Eliminations; (12) Other Accounting Entries;
and (13) Reconciliation of Net Cost of Operations to Budget.
1.B. Mission of the Reporting Entity
The Department of Defense was established by the National Security Act of 1947. The
Department provides the military forces needed to deter war and protect the security of our
country. Since the creation of America’s first army in 1775, the Department of Defense and
predecessor organizations have evolved into a global presence with a worldwide infrastructure
dedicated to defending the United States by deterring and defeating aggression and coercion in
critical regions.

ADDENDUM A                                                                 Financial Information
                                              18
Department of Defense Agency Financial Report for FY 2009
The Department of Defense includes the Military Departments and the Defense Agencies. The
Military Departments consist of the Army, the Navy (of which the Marine Corps is a component),
and the Air Force. The Defense Agencies provide support services commonly used throughout
the Department.
1.C. Appropriations and Funds
The Department receives appropriations and funds as general, working capital (revolving), trust,
special, and deposit funds. The Department uses these appropriations and funds to execute
missions and subsequently report on resource usage.
General Funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement, and
military construction. These general funds also include supplemental funds enacted by the
American Recovery and Reinvestment Act (Recovery Act) of 2009. Details relating to Recovery
Act appropriated funds are available on-line at http://www.defenselink.mil/recovery.
Working Capital Funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the goods
and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for use
without further congressional action.       At various times, Congress provides additional
appropriations to supplement WCF as an infusion of cash when revenues are inadequate to
cover costs within the corpus.
Trust funds contain receipts and expenditures of funds held in trust by the government for use in
carrying out specific purposes or programs in accordance with the terms of the donor, trust
agreement, or statute. Special fund accounts are used to record government receipts reserved
for a specific purpose. Certain trust and special funds may be designated as earmarked funds.
Earmarked funds are financed by specifically identified revenues, required by statute to be used
for designated activities, benefits or purposes, and remain available over time. The Department
is required to separately account for and report on the receipt, use and retention of revenues
and other financing sources for earmarked funds.
Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not Department funds, and as such, are not available for
the Department’s operations. The Department is acting as an agent or custodian for funds
awaiting distribution.
The Department is a party to allocation transfers with other federal agencies as a transferring
(parent) entity or receiving (child) entity. An allocation transfer is an entity’s legal delegation of
authority to obligate budget authority and outlay funds on its behalf. Generally, all financial
activity related to allocation transfers (e.g., budget authority, obligations, outlays) is reported in
the financial statements of the parent entity. Exceptions to this general rule apply to specific
funds for which OMB has directed that all activity be reported in the financial statements of the
child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office of
the President (EOP), and all other funds specifically designated by OMB. Based on an
agreement with OMB, funds for Security Assistance programs are reported separately from the
Department's financial statements and notes.
The Department receives allocation transfers from the following agencies: Departments of
Agriculture, Interior, Energy, and Transportation; the Appalachian Regional Commission; and
the Federal Highway Administration.


ADDENDUM A                                                                     Financial Information
                                                 19
Department of Defense Agency Financial Report for FY 2009
Additionally, the Department receives allocation transfers from certain funds meeting the OMB
exception and all related activity is included in the Department’s financial statements. The
exceptions reported by the Department include South Dakota Terrestrial Wildlife Habitat
Restoration, Inland Waterways and Harbor Maintenance, and the EOP other than funds
executed by Defense Security Cooperation Agency for Security Assistance.
As the parent, the Department allocates funds to the Departments of Transportation and
Agriculture, and reports all related activity in these financial statements.
1.D. Basis of Accounting
The Department’s financial management systems are unable to meet all full accrual accounting
requirements. Many of the Department’s financial and nonfinancial feeder systems and
processes were designed and implemented prior to the issuance of USGAAP. These systems
were not designed to collect and record financial information on the full accrual accounting basis
as required by USGAAP. Most of the Department’s financial and nonfinancial legacy systems
were designed to record information on a budgetary basis.
The Department’s financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies and
their sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and accruals
made for major items such as payroll expenses, accounts payable, and environmental liabilities.
Some of the sub-entity level trial balances may reflect known abnormal balances resulting
largely from business and system processes. At the consolidated Military Service and Defense
Agency level these abnormal balances may not be evident. These abnormal balances are
disclosed in the applicable footnotes, but only to the extent that the abnormal balances are
evident at the consolidated level.
The Department is determining the actions required to bring financial and nonfinancial feeder
systems and processes into compliance with USGAAP. One such action is the current revision
of accounting systems to record transactions based on the U.S. Standard General Ledger
(USSGL). Until all of the Department’s financial and nonfinancial feeder systems and processes
are able to collect and report financial information as required by USGAAP, the Department’s
financial data will be derived from budgetary transactions, data from nonfinancial feeder
systems, and accruals.
1.E. Revenues and Other Financing Sources
The Department receives congressional appropriations as financing sources for general funds
that expire annually, on a multiyear basis, or do not expire. When authorized by legislation,
these appropriations are supplemented by revenues generated by sales of goods or services.
The Department recognizes revenue as a result of costs incurred for goods and services
provided to other federal agencies and the public. Full-cost pricing is the Department’s standard
policy for services provided, as required by OMB Circular No. A-25, User Charges. The
Department recognizes revenue when earned within the constraints of its current system
capabilities. In some instances, revenue is recognized when bills are issued.
Depot Maintenance and Ordnance WCF activities recognize revenue according to the
percentage of completion method. Supply Management WCF activities recognize revenue from
the sale of inventory items.




ADDENDUM A                                                                  Financial Information
                                               20
Department of Defense Agency Financial Report for FY 2009
The Department does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and Note 21,
Reconciliation of Net Cost of Operations to Budget. The U.S. has cost sharing agreements with
countries having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or
where the U.S. Fleet is in a port.
1.F. Recognition of Expenses
For financial reporting purposes, the Department’s policy requires the recognition of operating
expenses in the period incurred. Current financial and nonfinancial feeder systems were not
designed to collect and record financial information on the full accrual accounting basis.
Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. In the case of Operating Materiel and Supplies (OM&S),
operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed. Due to system limitations, in
some instances expenditures for capital and other long-term assets may be recognized as
operating expenses.        The Department continues to implement process and system
improvements to address these limitations.
1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the Department cannot accurately identify intragovernmental transactions by
customer because the Department’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the Department provide summary seller-side
balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
Department accounting offices. In most cases, the buyer-side records are adjusted to agree
with the Department’s seller-side balances and are then eliminated. The Department is
implementing replacement systems and a standard financial information structure that will
incorporate the necessary elements that will enable the Department to correctly report,
reconcile, and eliminate intragovernmental balances.
The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policies Guide and
Treasury Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the
Financial Report of the United States Government, provide guidance for reporting and
reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all federal agencies, the Department is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and
the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor, and benefit program transactions with the Office of Personnel
Management.
The Department’s proportionate share of public debt and related expenses of the Federal
government is not included. The Federal government does not apportion debt and related costs
to federal agencies. The Department’s financial statements do not report any public debt,
interest, or source of public financing, whether from issuance of debt or tax revenues.
Generally, financing for the construction of the Department’s facilities is obtained through
appropriations. To the extent this financing ultimately may have been obtained through the
issuance of public debt, interest costs have not been capitalized since the U.S. Treasury does
not allocate such costs to the Department.



ADDENDUM A                                                                Financial Information
                                              21
Department of Defense Agency Financial Report for FY 2009
1.H. Transactions with Foreign Governments and International Organizations
Each year, the Department sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976. Under
the provisions of this Act, the Department has authority to sell defense articles and services to
foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.
1.I. Funds with the U.S. Treasury
The Department’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
Departments, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the Department’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and
deposits.
In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The
U.S. Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT)
account. On a monthly basis, the Department's FBWT is adjusted to agree with the U.S.
Treasury's accounts.
1.J. Cash and Other Monetary Assets
Cash is the total of cash resources under the control of the Department, which includes coin,
paper currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.
The majority of cash and all foreign currency is classified as “nonentity” and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing officers to
carry out their paying, collecting, and foreign currency accommodation exchange missions.
The Department conducts a significant portion of operations overseas. Congress established a
special account to handle the gains and losses from foreign currency transactions for five
general fund appropriations: (1) operation and maintenance; (2) military personnel; (3) military
construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate
current at the date of payment and a budget rate established at the beginning of each fiscal
year. Foreign currency fluctuations related to other appropriations require adjustments to the
original obligation amount at the time of payment. The Department does not separately identify
foreign currency fluctuation transactions.
1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public
are based upon an analysis of collection experience by fund type. The Department does not
recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance
with dispute resolution procedures defined in the Intragovernmental Business Rules published
in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.

ADDENDUM A                                                                  Financial Information
                                               22
Department of Defense Agency Financial Report for FY 2009
1.L. Direct Loans and Loan Guarantees
The Department operates a direct loan and loan guarantee program authorized by the National
Defense Authorization Act for FY 1996 (Public Law (PL) 104-106, Section 2801). The Act
includes a series of authorities that allow the Department to work with the private sector to
renovate military housing. The Department’s goals are to obtain private capital to leverage
government dollars, make efficient use of limited resources, and use a variety of private sector
approaches to build and renovate military housing faster and at a lower cost to the American
taxpayers.
The Act also provides the Department with a variety of authorities to obtain private sector
financing and expertise to improve military housing. The Department uses these authorities
individually or in combination.        They include guarantees (both loan and rental),
conveyance/leasing of existing property and facilities, differential lease payments, investments
(both limited partnerships and stock/bond ownership), and direct loans.
The National Defense Authorization Act for FY 2005 (PL 108-375, Section 2805) provided
permanent authorities to the Military Housing Privatization Initiative (MHPI).
The Department operates the Armament Retooling and Manufacturing Support Initiative under
Title 10 United States Code 4551-4555. This loan guarantee program is designed to encourage
commercial use of inactive government facilities. The revenue generated from property rental
offsets the cost of maintaining these facilities.
The Department administers the Foreign Military Financing program on behalf of the EOP. This
program is authorized by sections 23 and 24 of the Arms Export Control Act of 1976, as
amended, PL 90-629, as amended, and section 503(a). This program provides loans to help
countries purchase U.S. produced weapons, defense equipment, services, or military training.
The direct loans and loan guarantees related to Foreign Military Sales are not included in these
financial statements, per the Department’s agreement with OMB; this information is provided
separately as other accompanying information.
The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991.
1.M. Inventories and Related Property
The Department values approximately 68 percent of resale inventory using the moving average
cost method. An additional 6 percent (fuel inventory) is reported using the first-in-first-out
method. The Department reports the remaining 26 percent of resale inventories at an
approximation of historical cost using latest acquisition cost adjusted for holding gains and
losses. The latest acquisition cost method is used because legacy inventory systems were
designed for materiel management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data
necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
Accounting for Inventory and Related Property. Additionally, these systems cannot produce
financial transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (PL 104-208). The Department is continuing to transition the balance
of the inventories to the moving average cost method through the use of new inventory systems.
Most transitioned balances, however, were not baselined to auditable historical cost and remain
noncompliant with SFFAS No. 3.
The Department manages only military or government-specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and includes
items such as ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair
parts, and support equipment. Items commonly used in and available from the commercial

ADDENDUM A                                                                 Financial Information
                                              23
Department of Defense Agency Financial Report for FY 2009
sector are not managed in the Department’s materiel management activities. Operational
cycles are irregular, and the military risks associated with stock-out positions have no
commercial parallel. The Department holds materiel based on military need and support for
contingencies. The Department is currently developing a methodology to be used to account for
“inventory held for sale” and “inventory held in reserve for future sale,” with a completion date of
year-end FY 2010 reporting.
Related property includes OM&S and stockpile materiel. The OM&S, including munitions not
held for sale, are valued at standard purchase price. The Department uses both the
consumption method and the purchase method of accounting for OM&S. Items that are centrally
managed and stored, such as ammunition and engines, are generally recorded using the
consumption method and are reported on the Balance Sheet as OM&S. When current systems
cannot fully support the consumption method, the Department uses the purchase method.
Under this method, materiel and supplies are expensed when purchased. During FY 2009 and
FY 2008, the Department expensed significant amounts using the purchase method because
the systems could not support the consumption method or management deemed that the item
was in the hands of the end user. This is a material weakness for the Department and long-
term system corrections are in process. Once the proper systems are in place, these items will
be accounted for under the consumption method of accounting.
The Department determined that the recurring high dollar-value of OM&S in need of repair is
material to the financial statements and requires a separate reporting category. Many high-
dollar items, such as aircraft engines, are categorized as OM&S rather than military equipment.
The Department recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.”
The cost of disposal is greater than the potential scrap value; therefore, the net value of
condemned materiel is zero.
Inventory available and purchased for resale includes consumable spare and repair parts, and
repairable items owned and managed by the Department. This inventory is retained to support
military or national contingencies. Inventory held for repair is damaged inventory that requires
repair to make it suitable for sale. Often, it is more economical to repair these items rather than
to procure them. The Department often relies on weapon systems and machinery no longer in
production. As a result, the Department supports a process that encourages the repair and
rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and
armed military force. Work in process balances include: (1) costs related to the production or
servicing of items, including direct material, labor, and applied overhead; (2) the value of
finished products or completed services that are yet to be placed in service; and (3) munitions in
production and depot maintenance work with associated costs incurred in the delivery of
maintenance services.
1.N. Investments in U.S. Treasury Securities
The Department reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the investments
using the effective interest rate method or another method that yields similar results. The
Department’s intent is to hold investments to maturity unless they are needed to finance claims
or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or
losses on these securities.
The Department invests in nonmarketable, market-based U.S. Treasury securities, which are
issued to federal agencies by the U. S. Treasury’s Bureau of the Public Debt. They are not
traded on any securities exchange but mirror the prices of particular U.S. Treasury securities
traded in the government securities market.

ADDENDUM A                                                                    Financial Information
                                                24
Department of Defense Agency Financial Report for FY 2009
The Department’s net investments are held by various trust and special funds. These funds
include the Military Retirement Fund; Medicare-Eligible Retiree Health Care Fund; Other
Defense Organizations General Fund trust and special funds; donations (gift funds); and the
U. S. Treasury managed trust funds reported by USACE including the South Dakota Terrestrial
Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Funds.
Other investments represent joint ventures with private developers constructing or improving
military housing on behalf of the Department under the authority of the MHPI, authorized by
PL 104-106, Section 2801. These investments do not require market value disclosure. The
Department’s potential losses on these ventures are limited to the amounts invested.
1.O. General Property, Plant and Equipment
The Department uses the estimated historical cost for valuing military equipment. The
Department identified the universe of military equipment by accumulating information relating to
program funding and associated military equipment, equipment useful life, program acquisitions,
and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.
The Department’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The Department has not fully
implemented the threshold for real property; therefore, the Department is primarily using the
capitalization threshold of $100 thousand for General PP&E, and most real property.
With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the Department’s capitalization threshold. The Department
also requires the capitalization of improvements to existing General PP&E assets if the
improvements equal or exceed the capitalization threshold and extend the useful life or increase
the size, efficiency, or capacity of the asset. The Department depreciates all General PP&E,
other than land, on a straight-line basis.
The WCFs capitalize all PP&E used in the performance of their mission. These assets are
capitalized as General PP&E, whether or not they meet the definition of any other PP&E category.
The USACE Civil Works General PP&E is capitalized at acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost
exceeds $25 thousand. The exception is buildings and structures related to hydropower
projects, which are capitalized regardless of cost.
When it is in the best interest of the government, the Department provides government property
to contractors to complete contract work. The Department either owns or leases such property,
or it is purchased directly by the contractor for the government based on contract terms. When
the value of contractor-procured General PP&E meets or exceeds the Department’s
capitalization threshold, federal accounting standards require that it be reported on the
Department’s Balance Sheet.
The Department developed policy and a reporting process for contractors with government
furnished equipment that provides appropriate General PP&E information for financial statement
reporting. The Department requires that entities maintain, in their property systems, information
on all property furnished to contractors. These actions are structured to capture and report the
information necessary for compliance with federal accounting standards. The Department has
not fully implemented this policy primarily due to system limitations.




ADDENDUM A                                                                 Financial Information
                                               25
Department of Defense Agency Financial Report for FY 2009
1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the
Department’s policy is to record advances or prepayments in accordance with USGAAP. As
such, payments made in advance of the receipt of goods and services should be reported as an
asset on the Balance Sheet. The Department’s policy is to expense and/or properly classify
assets when the related goods and services are received. The Department has not fully
implemented this policy primarily due to system limitations.
1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment purchase of
property (a capital lease), and the value equals or exceeds the current capitalization threshold,
the Department records the applicable asset as though purchased, with an offsetting liability,
and depreciates it. The Department records the asset and liability at the lesser of the present
value of the rental and other lease payments during the lease term (excluding portions
representing executory costs paid to the lessor) or the asset’s fair market value. The discount
rate for the present value calculation is either the lessor’s implicit interest rate or the
government’s incremental borrowing rate at the inception of the lease. The Department, as the
lessee, receives the use and possession of leased property, for example real estate or
equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risks of ownership. Payments for operating leases are
expensed over the lease term as they become payable.
Office space and leases entered into by the Department are the largest component of operating
leases and are based on costs gathered from existing leases, General Services Administration
bills, and interservice support agreements. Future year projections use the Consumer Price
Index.
1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere on the
Department’s Balance Sheet.
The Department conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, the Department may provide financing payments.
Contract financing payments are defined in the Federal Acquisition Regulation, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the
government. Contract financing payment clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial
advances and interim payments, progress payments based on cost, and interim payments
under certain cost reimbursement contracts. It is the Department’s policy to record certain
contract financing payments as other assets. The Department has not fully implemented this
policy primarily due to system limitations.
Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of
completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage or stage of completion only for construction of real property,
shipbuilding and ship conversion, alteration, or repair. Progress payments based on percentage
or stage of completion are reported as Construction in Progress.


ADDENDUM A                                                                 Financial Information
                                               26
Department of Defense Agency Financial Report for FY 2009
1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by
SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Department recognizes contingent liabilities when past
events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist, but there is at least a reasonable possibility of incurring a loss or additional losses.
The Department’s risk of loss and resultant contingent liabilities arise from pending or
threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle
accidents; medical malpractice; property or environmental damages; and contract disputes.
Other liabilities arise as a result of anticipated disposal costs for the Department’s assets.
Consistent with SFFAS No. 6, Accounting for Property, Plant, and Equipment, recognition of an
anticipated environmental disposal liability begins when the asset is placed into service. Based
on the Department’s policy, which is consistent with SFFAS No. 5, Accounting for Liabilities of
the Federal Government, nonenvironmental disposal liabilities are recognized when
management decides to dispose of an asset. The Department recognizes nonenvironmental
disposal liabilities for military equipment nuclear-powered assets when placed into service.
These amounts are not easily distinguishable and are developed in conjunction with
environmental disposal costs.
1.T. Accrued Leave
The Department reports liabilities for military leave and accrued compensatory and annual leave
for civilians. Sick leave for civilians is expensed when taken. The liabilities are based on
current pay rates.
1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.
Unexpended appropriations represent the amounts of budget authority that are unobligated and
have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred.
Cumulative results of operations represent the net difference between expenses and losses,
and financing sources (including appropriations, revenue, and gains), since inception. The
cumulative results of operations also include donations and transfers in and out of assets that
were not reimbursed.
1.V. Treaties for Use of Foreign Bases
The Department has the use of land, buildings, and other overseas facilities that are obtained
through various international treaties and agreements negotiated by the Department of State.
The Department purchases capital assets overseas with appropriated funds, however, the host
country retains title to the land and capital improvements. Treaty terms generally allow the
Department continued use of these properties until the treaties expire. In the event treaties or
other agreements are terminated, use of the foreign bases is prohibited and losses are recorded
for the value of any nonretrievable capital assets. The settlement due to the U.S. or host nation
is negotiated and takes into account the value of capital investments and may be offset by the
cost of environmental cleanup.

ADDENDUM A                                                                   Financial Information
                                                27
Department of Defense Agency Financial Report for FY 2009
1.W. Unexpended Obligations
The Department obligates funds to provide goods and services for outstanding orders not yet
delivered. Unless title has passed, the financial statements do not reflect a liability for payment
for goods and services not yet delivered. Unexpended obligations includes both obligations for
which goods and services have been delivered (title passed) and a liability recognized, and
obligations for which no delivery has occurred and no liability recognized. The balance of
unexpended obligations appears immediately before net outlays in the Statement of Budgetary
Resources, and is referred to as “Total, unpaid obligated balances, net, end of period.”
1.X. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements
and collections matched at the transaction level to specific obligations, payables, or receivables
in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.
The Department’s policy is to allocate supported undistributed disbursements and collections
between federal and nonfederal categories based on the percentage of distributed federal and
nonfederal accounts payable and accounts receivable. Supported undistributed disbursements
and collections are then applied to reduce accounts payable and receivable accordingly.
Unsupported, undistributed disbursements are recorded as disbursements in transit and reduce
nonfederal accounts payable.       Unsupported, undistributed collections are recorded in
nonfederal other liabilities.
1.Y. Fiduciary Activities
Fiduciary cash and other assets are not assets of the Department and are not recognized on the
balance sheet. Fiduciary activities are reported on the financial statement note schedules.

Note 2. Nonentity Assets

 Nonentity Assets                                                                   Dollars in Millions


 As of September 30
                                                                                  Restated
                                                           2009
                                                                                   2008
 Intragovernmental Assets
      Fund Balance with Treasury                       $            823.2     $              1,170.2
      Accounts Receivable                                              0.0                         0.1
      Total Intragovernmental Assets                   $            823.2     $              1,170.3
 Nonfederal Assets
      Cash and Other Monetary Assets                   $           2,239.4    $              2,681.8
      Accounts Receivable                                          4,583.5                   5,079.9
      Other Assets                                                  186.2                       183.4
      Total Nonfederal Assets                          $           7,009.1    $              7,945.1
 Total Nonentity Assets                                $           7,832.3    $              9,115.4
 Total Entity Assets                                   $       1,791,635.2    $         1,665,496.3
 Total Assets                                          $       1,799,467.5    $         1,674,611.7



ADDENDUM A                                                                   Financial Information
                                                28
Department of Defense Agency Financial Report for FY 2009


Nonentity assets are assets for which the Department maintains stewardship, accountability,
and reporting responsibility, but are not available for the Department’s normal operations.
The Department identified a prior period adjustment to assets, resulting in a net $25.3 million
increase to nonentity, nonfederal accounts receivable. Refer to Note 26, Restatements, for
further information.
Intragovernmental Fund Balance with Treasury (FBWT) consists of deposit funds, seized Iraqi
cash, and the Development Fund for Iraq (DFI). Deposit funds are generally used to record
amounts held temporarily until paid to the appropriate party. Humanitarian relief and
reconstruction deposit funds are funds held for expenditures on behalf of the Iraqi people.
Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces and restricted for
support of the Iraqi people. The DFI consists of proceeds from Iraqi oil sales, repatriated assets
from the United States and other nations, and deposits from unencumbered oil-for-food
proceeds. DFI funds are restricted for Iraqi infrastructure and other Iraqi support needs.
Nonfederal Cash and Other Monetary Assets primarily consists of cash held by Disbursing
Officers to carry out payment, collection, and foreign currency accommodation exchange
missions.
Nonfederal Accounts Receivable consists of certain amounts due related to canceled year
appropriations and interest, fines, and penalties due on debt. Generally, the Department cannot
use the collections and must distribute them to the U.S. Treasury. In those cases where the
Department has specific statutory authority to retain collections from certain canceled year
accounts, the receivables are reported as entity assets.
Nonfederal Other Assets consists of an Advance Payment Pool Agreement with a nonprofit
educational institution to finance research and development projects.

Note 3. Fund Balance with Treasury
 Fund Balance with Treasury                                                          Dollars in Millions

 As of September 30                                          2009                    2008
 Fund Balance
      Appropriated Funds                               $         491,763.4      $          455,876.7
      Revolving Funds                                               7,804.2                   8,978.8
      Trust Funds                                                   1,874.0                   1,818.5
      Special Funds                                                  395.8                       436.4
      Other Fund Types                                               916.9                    1,286.5
      Total Fund Balance                                $        502,754.3      $          468,396.9
 Fund Balance Per Treasury Versus Agency
      Fund Balance per Treasury                         $        509,703.2      $          473,736.8
      Fund Balance per Agency                                    502,754.3                 468,396.9

 Reconciling Amount                                     $           6,948.9     $             5,339.9




ADDENDUM A                                                                    Financial Information
                                               29
Department of Defense Agency Financial Report for FY 2009
Other Fund Types primarily consists of deposit funds, receipt accounts, and DFI.
The Department shows a reconciling net difference of $6.9 billion with the U.S. Treasury. This
primarily includes $6.3 billion in canceled appropriations, $545.7 million in unavailable receipts
accounts, $187.4 million in fiduciary activities, and ($80.4) million in allocation transfers.

 Status of Fund Balance with Treasury                                                Dollars in Millions

 As of September 30                                          2009                    2008
 Unobligated Balances
    Available                                           $        131,353.4      $          121,096.4
    Unavailable                                                  440,684.0                 401,136.6
 Obligated Balance not yet Disbursed                             454,389.6                 432,553.3
 Nonbudgetary FBWT                                                   899.8                    1,060.8
 NonFBWT Budgetary Accounts                                     (524,572.5)              (487,450.2)
 Total Fund Balance                                     $        502,754.3      $          468,396.9

The Status of FBWT reflects the budgetary resources to support the FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated
and obligated balances.      The balances reflect the budgetary authority remaining for
disbursement against current or future obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance consists primarily of funds invested in U.S. Treasury securities that are
temporarily precluded from obligation by law. Certain unobligated balances are restricted for
future use and are not apportioned for current use. Unobligated balances for trust fund
accounts are restricted for use by the public law that established the funds.
Obligated Balance not yet Disbursed represents funds that have been obligated for goods and
services not received and those received, but not paid.
Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit
funds, unavailable receipt accounts, clearing accounts, and nonentity FBWT.
NonFBWT Budgetary Accounts reduces the Status of FBWT and consists of investments in
U.S. Treasury securities, unfilled customer orders without advance, contract and borrowing
authority, and receivables.




ADDENDUM A                                                                    Financial Information
                                               30
Department of Defense Agency Financial Report for FY 2009

Note 4. Investments and Related Interest

Investments and Related Interest                                                                            Dollars in Millions
                                                                           2009
                                                                          Amortized
                                                            Amortization             Investments, Market Value
                                               Cost                      (Premium) /
                                                              Method                     Net       Disclosure
As of September 30                                                        Discount
Intragovernmental Securities
Nonmarketable,
Market-Based
 Military Retirement Fund              $       281,250.3      See Below   $       (5,774.0)    $       275,476.3      $ 283,292.6
 Medicare-Eligible Retiree
                                               150,184.3      See Below           (3,345.5)            146,838.8          150,820.6
 Health Care Fund
 US Army Corps of Engineers                       5,239.5     See Below               (41.7)             5,197.8             5,363.2
 Other Funds                                      2,915.6     See Below               (28.8)             2,886.8             2,618.8
Total Nonmarketable,
                                        $      439,589.7                      $ (9,190.0)      $ 430,399.7            $ 442,095.2
Market-Based
Accrued Interest                                  4,484.3                                                4,484.3             4,484.3
Total Intragovernmental
                                        $      444,074.0                      $ (9,190.0)          $ 434,884.0        $ 446,579.5
Securities
Other Investments
Total Other Investments                 $         2,017.1                     $         0.0        $     2,017.1                  N/A
Amortization Method Used: Effective Interest




 Investments and Related Interest                                                                                  Dollars in Millions
                                                                            2008
                                                                          Amortized
                                                            Amortization             Investments, Market Value
                                            Cost                         (Premium) /
                                                              Method                     Net       Disclosure
As of September 30                                                        Discount
Intragovernmental Securities
   Nonmarketable,
   Market-Based
    Military Retirement Fund            $      255,722.1     See Below    $ (5,423.8)          $ 250,298.3            $ 240,912.7
    Medicare-Eligible
                                               135,483.4     See Below            (2,683.7)         132,799.7            127,002.4
    Retiree Health Care Fund
    US Army Corps of
                                                 4,790.4     See Below               (26.0)             4,764.4             4,909.9
    Engineers
    Other Funds                                  2,382.0     See Below               (19.6)             2,362.4             2,391.2
  Total Nonmarketable,
                                        $      398,377.9                  $ (8,153.1)          $ 390,224.8            $ 375,216.2
  Market-Based
  Accrued Interest                               4,283.7                                                4,283.7             4,283.7
 Total Intragovernmental
                                        $      402,661.6                  $ (8,153.1)          $ 394,508.5            $ 379,499.9
 Securities
Other Investments
 Total Other Investments                $        1,861.5                  $            0.0     $        1,861.5                  N/A
Amortization Method Used: Effective Interest




ADDENDUM A                                                                                              Financial Information
                                                               31
Department of Defense Agency Financial Report for FY 2009
The Department’s earmarked funds invest primarily in non-marketable, market-based securities
that fluctuate in tandem with the current selling price of the equivalent marketable security on
the open market. These securities are purchased with the intent to hold until maturity, thus
balances are not adjusted to market value.
The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and
are an asset to the Department and a liability to the U.S. Treasury. The Federal Government
does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash generated from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general government purposes. Since the Department and
the U.S. Treasury are both part of the Federal Government, these assets and liabilities offset
each other from the standpoint of the Federal Government as a whole. For this reason, they do
not represent an asset or a liability in the U.S. Governmentwide financial statements.
The U.S. Treasury securities provide the Department with authority to draw upon the U.S.
Treasury to make future benefit payments or other expenditures. When the Department must
redeem these securities, the government will finance them from accumulated cash balances by
raising taxes or other receipts, borrowing from the public, repaying less debt, or curtailing other
expenditures.     The Federal Government uses the same method to finance all other
expenditures.
Other Funds primarily consists of $1.9 billion in investments of the DoD Education Benefits
Trust Fund and $459.5 million in investments of the Voluntary Separation Incentive Trust Fund.
Note 5. Accounts Receivable

 Accounts Receivable                                                                    Dollars in Millions

                                                              2009
                                                          Allowance For              Accounts
                                   Gross Amount Due         Estimated              Receivable, Net
 As of September 30                                       Uncollectibles

   Intragovernmental Receivables        $    1,219.6                       N/A         $         1,219.6

   Nonfederal Receivables
                                             8,804.4                 (570.3)                    8,234.1
   (From the Public)

 Total Accounts Receivable              $   10,024.0           $     (570.3)           $        9,453.7




Accounts Receivable                                                                     Dollars in Millions

                                                              2008
                                                          Allowance For              Accounts
                                   Gross Amount Due         Estimated              Receivable, Net
 As of September 30                                       Uncollectibles

   Intragovernmental Receivables        $    1,326.2                       N/A          $        1,326.2

   Nonfederal Receivables
                                             8,211.6                 (386.3)                     7,825.3
   (From the Public)

Total Accounts Receivable               $    9,537.8           $     (386.3)             $       9,151.5


ADDENDUM A                                                                       Financial Information
                                                32
Department of Defense Agency Financial Report for FY 2009
While migrating from a manual to an automated interface between budget execution and
financial statement reporting systems, the Department corrected errors resulting in an increase
to nonfederal receivables of $40.8 million in FY 2008. Refer to Note 26, Restatements, for
further information.
Accounts receivable represent the Department’s claim for payment from other entities. The
Department only recognizes an allowance for uncollectible amounts from the public. Claims
with other federal agencies are resolved in accordance with the Intragovernmental Business
Rules.
Note 6. Other Assets
 Other Assets                                                                         Dollars in Millions

                                                                                     Restated
 As of September 30                                          2009
                                                                                      2008
 Intragovernmental Other Assets
      Advances and Prepayments                         $             2,469.8     $             1,158.0
      Other Assets                                                    124.9                       124.9
      Total Intragovernmental Other Assets             $             2,594.7     $             1,282.9
 Nonfederal Other Assets
      Outstanding Contract Financing Payments          $            55,047.2     $            54,136.1
      Advances and Prepayments                                       1,234.1                   1,282.8
      Other Assets (With the Public)                                  356.2                       410.1
      Total Nonfederal Other Assets                    $            56,637.5     $            55,829.4
 Total Other Assets                                    $            59,232.2     $            57,112.3


The Department restated the FY 2008 balance in Nonfederal Other Assets by $26.9 billion. The
Department incorrectly reported contract financing payments for shipbuilding as expenses
rather than assets. Refer to Note 26, Restatements, for further information.
Intragovernmental Other Assets represents the Department’s right to approximately 6 million
barrels of crude oil held by the Department of Energy.
The balance of Outstanding Contract Financing Payments includes $53.2 billion in contract
financing payments and an additional $1.5 billion in estimated future payments to contractors
upon delivery and government acceptance of a satisfactory product. See additional discussion
in Note 15, Other Liabilities.
Contract terms and conditions for certain types of contract financing payments convey rights to
the Department that protect the contract work from state or local taxation, liens or attachment by
the contractor's creditors, transfer of property, or disposition in bankruptcy. However, these
rights should not be misconstrued to mean that ownership of the contractor’s work has
transferred to the Federal Government. The Federal Government does not have the right to
take the work, except as provided for in contract clauses related to termination or acceptance,
and the Department is not obligated to make payment to the contractor until delivery and
acceptance.
The balance in Other Assets (With the Public) includes $186.2 million for an Advance Payment
Pool Agreement with nonprofit institutions and $143.9 million for inventory returned to vendors
pending credit.



ADDENDUM A                                                                     Financial Information
                                                33
Department of Defense Agency Financial Report for FY 2009
Note 7. Cash and Other Monetary Assets
    Cash and Other Monetary Assets                                                      Dollars in Millions

    As of September 30                                                2009                 2008
    Cash                                                          $          810.8     $          1,421.3
    Foreign Currency                                                     1,506.0                  1,383.5

    Total Cash, Foreign Currency, and Other Monetary Assets       $      2,316.8       $          2,804.8


Cash (except for $76.4 million in undeposited collections and $1.0 million in imprest funds) and
Foreign Currency represent nonentity assets and are restricted and unavailable to fund the
Department's mission.

Note 8. Direct Loan and Loan Guarantees
Direct Loan and Loan Guarantee Programs
The Department operates the following direct loan and/or loan guarantee programs:
•      Military Housing Privatization Initiative (MHPI) and
•      Armament Retooling and Manufacturing Support Initiative (ARMS)
The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations
and loan guarantee commitments made after FY 1991.
Direct loans are reported at the net present value of the following projected cash flows:
•      Loan disbursements;
•      Repayments of principal; and
•      Payments of interest and other payments over the life of the loan after adjusting for
       estimated defaults, prepayments, fees, penalties, and other recoveries.
Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee
is the net present value of the following estimated projected cash flows:
•      Payments by the Department to cover defaults and delinquencies, interest subsidies, or
       other payments; offset by
•      Payments to the Department including origination and other fees, penalties, and recoveries.
Military Housing Privatization Initiative
The MHPI includes both direct loan and loan guarantee programs. The loan guarantee program
is authorized by the National Defense Authorization Act for FY 1996 (Public Law 104-106,
Section 2801) and includes a series of authorities that allow the Department to work with the
private sector to renovate and build military family housing. The MHPI accelerates the
construction of new housing built to market standards and leverages private sector capital. The
Department provides protection to the private sector partner against specific risks, such as base
closure or member deployment. One of the goals of the Department is to obtain private sector
capital to leverage government dollars. The Department provides protection to the private
sector partner against specific risks, such as base closure or member deployment.




ADDENDUM A                                                                       Financial Information
                                                     34
Department of Defense Agency Financial Report for FY 2009
Armament Retooling and Manufacturing Support Initiative
The ARMS Initiative, Title 10 U.S. Code 4551-4555, is a loan guarantee program designed to
encourage commercial use of the Army's inactive ammunition plants through incentives for
businesses willing to locate to a government ammunition production facility. The production
capacity of these facilities is greater than current military requirements, however, this capacity
may be needed by the military in the future. Revenues from property rentals are used to help
offset the overhead costs for the operation, maintenance and environmental cleanup at the
facilities.
In an effort to preclude any additional loan liability, the Army instituted an ARMS loan guarantee
moratorium in FY 2004. The Army continues to operate under the moratorium and does not
anticipate new loans.


 Summary of Direct Loans and Loan Guarantees                                          Dollars in Millions

 As of September 30, 2009 and 2008                            2009                   2008
 Loans Receivable
 Direct Loans:
  Military Housing Privatization Initiative           $               398.4    $                  236.0
  Total Direct Loans                                  $               398.4    $                  236.0
 Defaulted Loan Guarantees:
  Armament Retooling & Manufacturing
  Support Initiative                                                    0.1                          0.0
  Total Default Loan Guarantees                       $                 0.1    $                     0.0
 Total Loans Receivable                               $               398.5    $                  236.0
 Loan Guarantee Liability
  Military Housing Privatization Initiative           $                18.7    $                   22.2
  Armament Retooling & Manufacturing
  Support Initiative                                                    2.4                          2.3
  Total Loan Guarantee Liability                          $            21.1    $                   24.5



 Direct Loans Obligated                                                               Dollars in Millions

 As of September 30, 2009 and 2008                            2009                   2008
 Direct Loans Obligated After FY 1991
 (Present Value Method):
    Military Housing Privatization Initiative
    Loans Receivable Gross                            $               510.9    $                  339.6
    Allowance for Subsidy Cost (Present Value)                       (112.5)                    (103.6)
    Value of Assets Related to Direct Loans                           398.4                       236.0
    Total Direct Loans Receivable                     $               398.4    $                  236.0

Loans receivable, net, or value of assets related to loans, is not the same as the proceeds the
Department would expect to receive from selling the loans.
Interest receivable is calculated using the interest earned method.




ADDENDUM A                                                                     Financial Information
                                                 35
Department of Defense Agency Financial Report for FY 2009

 Total Amount of Direct Loans Disbursed                                                                             Dollars in Millions

 As of September 30, 2009 and 2008                                                2009                              2008
 Direct Loan Programs
    Military Housing Privatization Initiative                          $                     171.7          $                     31.7
    Total Direct Loans Disbursed                                       $                     171.7          $                     31.7


 Subsidy Expense for Direct Loan by Program
As of September 30, 2009 and 2008                                                                                   Dollars in Millions

                  2009                          Interest           Defaults                Fees             Other               Total
                                               Differential
New Direct Loans Disbursed:

Military Housing Privatization Initiative       $      16.0        $          16.4    $           0.0   $           0.0     $     32.4

                  2008                          Interest           Defaults                Fees             Other               Total
                                               Differential
New Direct Loans Disbursed:
Military Housing Privatization Initiative       $      12.6        $           3.0    $           0.0   $           0.0     $     15.6

                  2009                          Modifica-        Interest Rate Technical    Total                               Total
                                                 tions           Reestimates Reestimates Reestimates
Direct Loan Modifications and Reestimates:
Military Housing Privatization Initiative       $          0.0     $          (3.4)   $      (12.5)     $ ( 15.9)           $ (15.9)

                  2008                         Modifica-         Interest Rate Technical    Total                            Total
                                                tions            Reestimates Reestimates Reestimates
Direct Loan Modifications and
Reestimates:
Military Housing Privatization Initiative       $          0.0     $          (0.8)   $       (2.2)     $       ( 3.0)      $ ( 3.0)
                                                    2009               2008
Total Direct Loan Subsidy Expense:
Military Housing Privatization Initiative       $      16.5        $          12.6



 Subsidy Rate for Direct Loans by Program                                                                           Dollars in Millions

                                                               Interest                      Fees and
 As of September 30, 2009 and 2008                                              Defaults       other            Other           Total
                                                              Differential
                                                                                             Collections
 Budget Subsidy Rates for Direct Loans
   Military Housing Privatization Initiative                      19.46%         11.85%             0.00%       0.00%           31.31%

Subsidy rates pertain to the loan agreements contracted during the current fiscal year. These
rates cannot be applied to the direct loans disbursed during the current reporting year to yield
the subsidy expense. The subsidy expense for new loans disbursed in the current year results
from disbursements of loans from current and prior year loan agreements. The subsidy
expense reported in the current year also includes reestimates.




ADDENDUM A                                                                                              Financial Information
                                                                 36
Department of Defense Agency Financial Report for FY 2009

Schedule for Reconciling Subsidy Cost Allowance Balances
for Post FY1991 Direct Loans                                                                   Dollars in Millions
As of September 30, 2009 and 2008                              2009                            2008
Beginning Balance, Changes, and Ending Balance:
Beginning Balance of the Subsidy Cost Allowance           $               103.6           $                 95.9


Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
  Interest Rate Differential Costs                                          16.0                            12.6
  Default Costs (Net of Recoveries)                                         16.4                             3.0
Total of the above Subsidy Expense Components             $                 32.4          $                 15.6
Adjustments
  Subsidy Allowance Amortization                                            (7.6)                           (4.9)
Total of the above Adjustment Components                  $                 (7.6)         $                 (4.9)

Ending Balance of the Subsidy Cost Allowance before
                                                          $               128.4           $                106.6
Reestimate
Add or Subtract Subsidy Reestimate by Component
  Interest Rate Reestimate                                                 (3.4)                            (0.8)
  Technical/Default Reestimate                                            (12.5)                            (2.2)
Total of the above Reestimate Components                                  (15.9)                            (3.0)


 Ending Balance of the Subsidy Cost Allowance             $               112.5           $                103.6



Defaulted Guaranteed Loans                                                                     Dollars in Millions
As of September 30, 2009                                       2009                            2008
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees (Present Value Method):

Armament Retooling & Manufacturing Support Initiative
   Defaulted Guaranteed Loans Receivable, Gross           $                  0.7          $                 15.1

   Allowance for Subsidy Cost (Present Value)                             ( 0.6)                          (15.1)
Total Value of Assets Related to Defaulted
                                                          $                  0.1          $                   0.0
Guaranteed Loans Receivable


Guaranteed Loans Outstanding                                                                   Dollars in Millions
                                                  Outstanding Principal        Amount of Outstanding
                                                  of Guaranteed Loans,
                                                                                Principal Guaranteed
As of September 30, 2009                               Face Value
Guaranteed Loans Outstanding

Military Housing Privatization Initiative          $               467.2            $                      467.2
Armament Retooling & Manufacturing Support                            3.0                                     2.4
Initiative
Total Guaranteed Loans Outstanding                 $               470.2            $                      469.6




ADDENDUM A                                                                              Financial Information
                                                  37
Department of Defense Agency Financial Report for FY 2009

 Guaranteed Loans Outstanding                                                                                      Dollars in Millions
                                                                Outstanding Principal               Amount of Outstanding
                                                                of Guaranteed Loans,
 As of September 30, 2008                                            Face Value                      Principal Guaranteed

 Guaranteed Loans Outstanding

 Military Housing Privatization Initiative                       $                        499.1        $                         499.1
 Armament Retooling & Manufacturing Support                                                 3.1                                       2.6
 Initiative
 Total Guaranteed Loans Outstanding                              $                        502.2        $                         501.7



 Liabilities for Loan Guarantees                                                                                   Dollars in Millions

 As of September 30, 2009 and 2008                                                        2009                          2008
 Liabilities for Loan Guarantee from Post FY 1991
 (Present Value):
   Military Housing Privatization Initiative                                      $                 18.7      $                   22.2
   Armament Retooling & Manufacturing Support Initiative                                             2.4                              2.3
   Total Loan Guarantee Liability                                                 $                 21.1      $                   24.5

 Subsidy Expense for Loan Guarantees by Program
 As of September 30, 2009 and 2008                                                                                 Dollars in Millions

                                               Modifica-          Interest   Technical     Total
                  2009                                              Rate                                                      Total
                                                tions                       Reestimates Reestimates
                                                                Reestimates
 Modifications and Reestimate:
 Military Housing Privatization
                                               $          0.0    $      (1.6)         $     (3.0)     $       ( 4.6)      $     ( 4.6)
 Initiative
  Armament Retooling &
                                                          0.0               0.1               0.0                 0.1                 0.1
  Manufacturing Support Initiative
  Total                                         $         0.0    $     ( 1.5)         $    ( 3.0)      $      ( 4.5)      $     ( 4.5)
                                                                  Interest
                                               Modifica-                     Technical     Total
                  2008                                              Rate                                                      Total
                                                tions                       Reestimates Reestimates
                                                                Reestimates
 Modifications and Reestimate:
 Military Housing Privatization
                                               $          0.0    $      (0.9)         $     (2.9)      $      ( 3.8)      $     ( 3.8)
 Initiative
  Armament Retooling &
                                                          0.0               0.4               1.7                 2.1              2.1
  Manufacturing Support Initiative
  Total                                         $         0.0    $      (0.5)         $    ( 1.2)      $       (1.7)      $      (1.7)
                                                   2009              2008
 Total Loan Guarantee Subsidy Expense:
  Military Housing Privatization
                                                $     (4.6)      $      (3.8)
  Initiative
  Armament Retooling &
                                                          0.1               2.1
  Manufacturing Support Initiative
  Total                                        $      (4.5)      $      ( 1.7)


There are no new loan guarantees in FY 2009.

ADDENDUM A                                                                                                 Financial Information
                                                                38
Department of Defense Agency Financial Report for FY 2009

 Schedule for Reconciling Loan Guarantee Liability Balances for
 Post-FY 1991 Loan Guarantees                                                          Dollars in Millions
 As of September 30, 2009                                     2009                     2008
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Loan Guarantee Liability        $              24.5     $                 25.0

 Adjustments
   Foreclosed Property and Loans Acquired                                 0.0                         0.7
   Claim Payments to Lenders                                              0.0                       (0.8)
   Interest Accumulation on the Liability Balance                         1.1                         1.3
   Other                                                                  0.0                         0.0
 Total of the above Adjustments                           $               1.1     $                   1.2

 Ending Balance of the Loan Guarantee Liability before
 Reestimates                                              $             25.6      $                 26.2

 Add or Subtract Subsidy Reestimates by Component
   Interest Rate Reestimate                                             (1.5)                       (0.5)
   Technical/Default Reestimate                                         (3.0)                       (1.2)
 Total of the above Reestimate Components                 $             (4.5)     $                 (1.7)

 Ending Balance of the Loan Guarantee Liability           $             21.1      $                 24.5


Administrative Expenses
Administrative Expenses are limited to separately identified expenses for administering pre
FY 1992 and post FY 1991 Direct Loans and Loan Guarantee Programs. The Department does
not maintain a separate program to capture the expenses related to direct loans and loan
guarantees for MHPI. Administrative expenses for the ARMS Initiative represent a fee paid to
the U.S. Department of Agriculture, Rural Business Cooperative Service for servicing the loan
guarantee program.


Note 9. Inventory and Related Property
 Inventory and Related Property                                                        Dollars in Millions

 As of September 30
                                                                                      Restated
                                                              2009
                                                                                       2008
 Inventory, Net                                           $          82,814.6     $            84,159.0
 Operating Materiel & Supplies, Net                               145,258.4                  148,663.6
 Stockpile Materiel, Net                                               723.6                       764.0
 Total Inventory and Related Property                     $       228,796.6       $          233,586.6




ADDENDUM A                                                                      Financial Information
                                                     39
Department of Defense Agency Financial Report for FY 2009

 Inventory, Net                                                                                           Dollars in Millions
                                                                 2009
                                                                                                     Valuation Method
                                        Inventory,             Revaluation
As of September 30                                                                 Inventory, Net
                                       Gross Value             Allowance
Inventory Categories
   Available and Purchased
                                           $   87,742.2          $   (24,422.8)       $   63,319.4        LAC,MAC
   for Resale
   Held for Repair                             28,055.7                (9,578.0)          18,477.7        LAC,MAC
   Excess, Obsolete, and
                                                 7,833.8               (7,833.8)               0.0           NRV
   Unserviceable
   Raw Materiel                                    490.3                     0.0             490.3      MAC,SP,LAC
   Work in Process                                 527.2                     0.0             527.2              AC
 Total Inventory, Net                      $ 124.649.2           $   (41,834.6)       $ 82,814.6
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
 SP = Standard Price                                                               MAC = Moving Average Cost
 AC = Actual Cost



 Inventory, Net                                                                                           Dollars in Millions
                                                           Restated 2008
                                                                                                     Valuation Method
                                        Inventory,           Revaluation
As of September 30                                                                 Inventory, Net
                                       Gross Value            Allowance
Inventory Categories
   Available and Purchased
                                           $   97,701.0          $   (29,755.9)       $ 67,945.1          LAC,MAC
   for Resale
   Held for Repair                             25,684.0              (10,195.2)           15,488.8        LAC,MAC
   Excess, Obsolete, and
                                                 7,761.3               (7,761.3)               0.0           NRV
   Unserviceable
   Raw Materiel                                    103.5                     0.0             103.5      MAC,SP,LAC
   Work in Process                                 621.6                     0.0             621.6              AC
 Total Inventory, Net                       $ 131,871.4          $   (47,712.4)       $ 84,159.0
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
 SP = Standard Price                                                               MAC = Moving Average Cost
 AC = Actual Cost

Current Year Adjustments from Implementation of Changes in Accounting Principles
During the 3rd Quarter, FY 2009 a DoD Component implemented an Enterprise Resource
Planning (ERP) system. This ERP provided the means to revalue inventory from latest
acquisition cost (LAC) to moving average cost (MAC), which is the Department's current policy
for reporting inventory. Both methods are intended to value inventory at historic cost, but LAC
valued inventory approximates historic cost by using an allowance account, while MAC
averages the price paid for the inventory and does not use an allowance account. Without the
allowance account, inventory valued at LAC will generally overstate the historic cost because
current prices used to value the inventory exceed the actual prices paid in earlier periods. As a
result of this implementation, FY 2009 Inventory Available and Purchased for Resale increased
by a net of $2.7 billion. Revaluing the inventory at MAC decreased the inventory value by $2.8
billion. However this decrease was offset by an increase caused by writing off the $5.5 billion
allowance account that had been used to offset the higher reported amount of the LAC valued.

ADDENDUM A                                                                                        Financial Information
                                                              40
Department of Defense Agency Financial Report for FY 2009
Comparative Year Restatements from Correction of Errors
The Department identified $3.9 billion in Inventory and Related Property, Net overstatements
from the incorrect posting of inventory in transit, resulting in a decrease to Inventory Available
and Purchased for Resale. In addition, while preparing for another ERP migration, the
Department identified a $1.5 billion gain that was incorrectly reported as inventory allowance in
the legacy system. This change increased FY 2008 Inventory Available and Purchased for
Resale. Refer to Note 26, Restatements, for further information.
Restrictions
The following are restrictions on the use, sale, or disposition of inventory.
•      War reserve materiel valued at $1.3 billion;
•      Commissary items valued at $400.1 million held for purchase by authorized patrons; and
•      Dispositions pending litigation or negotiation valued at $3.8 million.
There are no known restrictions on inventory disposition related to environmental or other
liabilities.
General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale.
Inventory is tangible personal property that is:
•      Held for sale, or held for repair and eventual sale;
•      In the process of production for sale; or
•      To be consumed in the production of goods for sale or in the provision of service for a fee.
The Department assigns inventory items to a category based upon the type and condition of the
asset.


    Operating Materiel and Supplies, Net                                                                     Dollars in Millions
                                                                       2009                                        Valuation
                                          OM&S, Gross                 Revaluation                                   Method
As of September 30                                                                          OM&S, Net
                                            Value                     Allowance
OM&S Categories
       Held for Use                               $ 128,932.9            $          (0.0)     $ 128,932.9     SP, LAC, MAC
       Held for Repair                               17,984.2                  (1,658.7)          16,635.5    SP, LAC, MAC
       Excess, Obsolete, and
                                                      3,386.2                  (3,386.2)               0.0           NRV
       Unserviceable
    Total OM&S                                   $ 150,303.3             $     (5,044.9)       $ 145,258.4
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
    SP = Standard Price                                                               MAC = Moving Average Cost




ADDENDUM A                                                                                           Financial Information
                                                                 41
Department of Defense Agency Financial Report for FY 2009

 Operating Materiel and Supplies, Net                                                                          Dollars in Millions
                                                              Restated 2008                                       Valuation
                                       OM&S, Gross              Revaluation                                        Method
As of September 30                                                                           OM&S, Net
                                         Value                   Allowance
OM&S Categories
    Held for Use                               $ 131,648.7            $            (0.0)         $ 131,648.7   SP, LAC, MAC
    Held for Repair                                18,374.0                 (1,359.1)              17,014.9    SP, LAC, MAC
    Excess, Obsolete, and
                                                    3,598.6                 (3,598.6)                    0.0         NRV
    Unserviceable
 Total OM&S                                   $ 153,621.3             $     (4,957.7)            $ 148,663.6
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses       NRV = Net Realizable Value
 SP = Standard Price                                                                 MAC = Moving Average Cost



Restrictions
Some munitions included in Operating Materiel and Supplies (OM&S) are restricted due to
condition. Restricted munitions are considered obsolete or unserviceable when they cannot
meet performance requirements. However, obsolete and unserviceable OM&S may be used in
emergency combat situations in which no other suitable munitions are immediately available.
General Composition of OM&S
OM&S includes spare and repair parts, ammunition, tactical missiles, aircraft configuration pods,
and centrally-managed aircraft engines held for consumption. The Department assigns OM&S
items into a category based upon the type and condition of the asset.


 Stockpile Materiel, Net                                                                                       Dollars in Millions
                                                                   2009
                                                                 Allowance                 Stockpile            Valuation
                                       Stockpile,                                                                Method
                                                                 for Gains                 Materiel,
As of September 30                   Materiel Amount
                                                                  (Losses)                    Net
Stockpile Material Categories
    Held for Sale                              $      694.3      $           0.0             $      694.3          AC, LCM
    Held in Reserve for Future
                                                       29.3                  0.0                     29.3          AC, LCM
    Sale
 Total Stockpile Material                     $      723.6       $           0.0             $      723.6
 Legend for Valuation Methods:
 AC = Actual Cost                                              LCM = Lower of Cost or Market




ADDENDUM A                                                                                             Financial Information
                                                              42
Department of Defense Agency Financial Report for FY 2009

 Stockpile Materiel, Net                                                                   Dollars in Millions
                                                 Restated 2008
                                 Stockpile,       Allowance            Stockpile            Valuation
                                  Materiel         for Gains           Materiel,             Method
As of September 30                Amount           (Losses)               Net
Stockpile Material Categories
    Held for Sale                  $     734.6     $          0.0         $        734.6       AC, LCM
    Held in Reserve for Future
                                          29.4               0.0                    29.4       AC, LCM
    Sale
 Total Stockpile Material          $     764.0     $         0.0          $        764.0
 Legend for Valuation Methods:
 AC = Actual Cost                                  LCM = Lower of Cost or Market

Restrictions
Materiel held by the National Defense Stockpile (NDS) is restricted unless released by
congressional action and made available for sale on the open market. Stockpile materiel may
not be disposed except for: (1) necessary upgrading, refining, or processing; (2) necessary
rotation to prevent deterioration; (3) determination as excess with potential financial loss if
retained; or (4) authorization by law.
Before selling any materiel, Congress must enact specific enabling legislation (e.g., the National
Defense Authorization Act). When authorized to offer materiel for sale, NDS removes the
materiel from Materiel Held in Reserve and reclassifies these items as Materiel Held for Sale.
The estimated market price of the stockpile materiel held for sale as of 4th Quarter, FY 2009, is
$1.3 billion
General Composition of Stockpile Materiel
The Department holds strategic and critical stockpile materiel due to statutory requirements for
use in national defense, conservation, or national emergencies.




ADDENDUM A                                                                           Financial Information
                                                 43
Department of Defense Agency Financial Report for FY 2009
Note 10. General PP&E, Net

 General PP&E, Net                                                              2009                         Dollars in Millions
                             Depreciation/                                                 (Accumulated
                                                      Service         Acquisition                                Net Book
 As of                       Amortization                                                  Depreciation/
                                                       Life             Value                                     Value
 September 30, 2009            Method                                                      Amortization)
 Major Asset Classes
Land                               N/A                  N/A               $     10,501.3              N/A        $    10,501.3
Buildings, Structures,
                                   S/L                20 or 40                 191,643.9       (107,987.4)            83,656.5
and Facilities
Leasehold
                                   S/L              Lease term                     703.1           (548.0)                155.1
Improvements
Software                           S/L               2-5 or 10                   9,022.9         (5,610.1)             3,412.8
General Equipment                  S/L                5 or 10                   80,690.7        (56,528.7)            24,162.0
Military Equipment                 S/L                Various                  796,842.6       (390,333.2)           406,509.4
Assets Under Capital                                   Lease
                                   S/L                                             956.3           (601.2)                355.1
Lease1                                                  term
Construction-in-
                                   N/A                  N/A                     30,809.5              N/A             30,809.5
Progress
Other                                                                               53.9             (1.3)                 52.6
Total
                                                                          $ 1,121,224.2      $ (561,609.9)       $ 559,614.3
General PP&E
 1
   Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable



 General PP&E, Net                                                        Restated 2008                    Dollars in Millions
                             Depreciation/                                                 (Accumulated
                                                      Service         Acquisition                               Net Book
 As of                       Amortization                                                  Depreciation/
                                                       Life             Value                                    Value
 September 30, 2008            Method                                                      Amortization)
 Major Asset Classes
Land                               N/A                  N/A                $    10,522.3              N/A         $ 10,522.3
Buildings, Structures,
                                   S/L                20 or 40                 180,196.7       (105,262.3)            74,934.4
and Facilities
Leasehold
                                   S/L              Lease term                    587.1            (391.5)               195.6
Improvements
Software                           S/L               2-5 or 10                   8,894.9         (5,529.0)             3,365.9
General Equipment                  S/L                5 or 10                   75,324.1        (52,811.2)            22,512.9
Military Equipment                 S/L                Various                  751,010.9       (379,727.4)           371,283.5
Assets Under Capital                                   Lease
                                   S/L                                            953.5            (536.0)               417.5
Lease1                                                  term
Construction-in-
                                   N/A                  N/A                     22,665.0              N/A             23,665.0
Progress
Other                                                                               57.7             (1.2)                 56.5
Total
                                                                          $ 1,051,212.2      $ (544,258.6)       $ 506,953.6
General PP&E
 1
   Note 15 for additional information on Capital Leases
 Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable




ADDENDUM A                                                                                        Financial Information
                                                              44
Department of Defense Agency Financial Report for FY 2009
The Department reduced the September 30, 2008, PP&E by $8.0 billion to correct errors
discovered as a result of data cleansing. During the migration to another capital asset system,
the Department restated $9.1 billion in military equipment overvalued in a legacy system. In
addition, the Department recognized $1.1 billion in Construction-in-Progress expensed, instead
of capitalized, through September 30, 2008. Also, the Department identified $23.9 million in
upward adjustments when migrating from a manual to an automated interface between budget
execution and financial statement reporting systems. Refer to Note 26, Restatements, for
further information.
Heritage Assets and Stewardship Land
The SFFAS No. 29, Heritage Assets and Stewardship Land, requires note disclosures for these
types of assets. The Department’s policy is to preserve its heritage assets, which are items of
historical, cultural, educational, or artistic importance.
Heritage assets within the Department consist of buildings and structures, archeological sites,
and museum collections. The Department defines these as follows:
•      Buildings and Structures. Buildings and structures that are listed, or eligible for listing, on
       the National Register of Historic Places, including Multi-Use Heritage Assets.
•      Archeological Sites. Sites that have been identified, evaluated, and determined to be
       eligible for or are listed on the National Register of Historic Places in accordance with
       Section 110 National Historic Preservation Act.
•      Museum Collection Items. Items which are unique for one or more of the following reasons:
       historical or natural significance; cultural, educational, or artistic importance; or significant
       technical or architectural characteristics.
The Department revised heritage assets reported as of September 30, 2008, to correct errors
discovered as a result of data cleansing.
The Department holds the following quantities of heritage assets at September 30, 2009.

                                        Measure       As of                                  As of
    Categories                                                    Additions   Deletions
                                        Quantity     9/30/08                                9/30/09
    Buildings and Structures             Each            18,810      24,783         570        43,023
    Archeological Sites                  Each            11,095       1,090          89        12,096
    Museum Collection Items
                                         Each         1,818,948      38,126     596,547     1,260,527
    (Objects, not including fine art)
    Museum Collection Items
                                         Each            41,730         798       2,729        39,799
    (Objects, fine art)


In FY 2009, the Department acquired 24,783 buildings and structures, 1,090 archeological sites,
154 fine art objects, and 16,865 other museum collection items through donation.
Stewardship Land is land and land rights owned by the Department, but not acquired for, or in
connection with, items of GPP&E. All land provided to the Department from the public domain
or at no cost, regardless of its use, is classified as Stewardship Land.
The Department’s stewardship land consists mainly of mission essential land acquired by
donation or devise. Fiscal Year Ended September 30, 2009, stewardship land data is not yet
available due to limitations of the Department’s financial and nonfinancial management
processes and systems that feed into the financial statements. The Department held the
following acres of land as of September 30, 2008.

ADDENDUM A                                                                        Financial Information
                                                    45
Department of Defense Agency Financial Report for FY 2009

  Facility                                        As of
   Code       Predominant Land Use               9/30/07                                        As of
                                                 (Acres in
                                                               Additions      Deletions        9/30/08
              Categories
                                                Thousands)
 9110         Government Owned Land                   8,067            9                97         7,979
 9111         State Owned Land                           142           0               140               2
 9120         Withdrawn Public Land                 16,137             0                80        16,057
 9130         Licensed and Permitted Land             2,819            0               815         2,004
 9140         Public Land                                706           0                 0            706
 9210         Land Easement                              496           0                59            437
 9220         In-leased Land                             519           0                39            780
 9230         Foreign Land                               613           0                25            588
              Grand Total                                                                         28,553
              Total – All Other Lands                                                             11,788
              Total – Stewardship Lands                                                           16,765


The mission of the Department is to provide the military forces necessary to deter war and
protect the security of the United States. In that mission, the Department, with minor
exceptions, uses most of the buildings and stewardship land in its daily activities and includes
the buildings on the Balance Sheet as multi-use heritage assets (capitalized and depreciated).
Other Disclosures
The Department has use of overseas land, buildings, and other facilities obtained through
international treaties and agreements negotiated by the Department of State. Treaty covenants
restrict the Department’s use and disposal of real property (land and buildings) located outside
the United States.
The Department does not have the acquisition value for all General PP&E and uses several
cost methodologies to provide General PP&E values for financial statement reporting purposes.
Other consists of assets awaiting disposal.


 Assets Under Capital Lease                                                                  Dollars in Millions

 As of September 30                                                2009                      2008
 Entity as Lessee, Assets Under Capital Lease
      Land and Buildings                                       $             759.8      $                654.9

      Equipment                                                              196.5                       298.6

      Accumulated Amortization                                             ( 601.2)                    (536.0)

      Total Capital Leases                                     $             355.1      $                417.5




ADDENDUM A                                                                            Financial Information
                                                    46
Department of Defense Agency Financial Report for FY 2009

Note 11. Liabilities Not Covered by Budgetary Resources
 Liabilities Not Covered by Budgetary Resources                                               Dollars in Millions

                                                                                              Restated
 As of September 30                                                   2009
                                                                                               2008
 Intragovernmental Liabilities
      Accounts Payable                                            $              4.3      $                  0.7
      Debt                                                                       8.1                       12.1
      Other                                                                  1,873.5                  10,088.4
      Total Intragovernmental Liabilities                         $          1,885.9      $           10,101.2
 Nonfederal Liabilities
      Accounts Payable                                            $           628.2       $               670.4
      Military Retirement and Other Federal Employment Benefits        1,587,744.7                1,599,400.6
      Environmental Liabilities                                          62,565.3                     66,870.0
      Other Liabilities                                                  14,829.0                     17,253.7
      Total Nonfederal Liabilities                                $    1,665,767.2        $       1,684,194.7
 Total Liabilities Not Covered by Budgetary Resources             $    1,667,653.1        $       1,694,295.9
 Total Liabilities Covered by Budgetary Resources                 $     494,209.0         $         441,567.3
 Total Liabilities                                                $    2,161,862.1        $       2,135,863.2



Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional
action is needed before budgetary resources can be provided.
Intragovernmental Accounts Payable and Nonfederal Accounts Payable primarily represent
liabilities in cancelled appropriations that, if paid, will be disbursed using funds current in the
year of disbursement.
Debt consists primarily of borrowing from the U.S. Treasury for capital improvements to the
Washington Aqueduct Project. Arlington County and Falls Church, Virginia, will complete
reimbursement to the Department by 2023.
Intragovernmental Liabilities Other primarily consists of $1.4 billion in unfunded Federal
Employees Compensation Act liabilities, $313.6 million in unfunded unemployment liabilities,
and $172.0 million in unfunded Judgment Fund liabilities not due during FY 2009.
Military Retirement and Other Federal Employment Benefits consists of various employee
actuarial liabilities not due and payable during the current fiscal year. These liabilities primarily
consist of $901.7 billion in pension liabilities and $677.6 billion in health benefit liabilities. Refer
to Note 17, Military Retirement and Other Federal Employment Benefits, for additional details
and disclosures.
Environmental Liabilities represents the Department’s liability for existing and anticipated
environmental clean up and disposal.
Nonfederal Liabilities, Other primarily consists of $9.7 billion in unfunded annual leave,
$2.1 billion in expected expenditures for disposal of conventional munitions, and $2.0 billion in
contingent liabilities.




ADDENDUM A                                                                             Financial Information
                                                      47
Department of Defense Agency Financial Report for FY 2009

Note 12. Accounts Payable

Accounts Payable                                                                         Dollars in Millions

                                                                2009
                                                          Interest, Penalties,
As of September 30                 Accounts Payable       and Administrative              Total
                                                                 Fees

Intragovernmental Payables                 $    2,207.8                    N/A            $      2,207.8
Nonfederal Payables
(To the Public)                                35,513.5                     6.3                35,519.8

Total Accounts Payable                     $   37,721.3         $           6.3           $    37,727.6




Accounts Payable                                                                         Dollars in Millions

                                                           Restated 2008
                                                          Interest, Penalties,
As of September 30                 Accounts Payable       and Administrative              Total
                                                                 Fees
Intragovernmental Payables                 $    1,687.4                    N/A            $      1,687.4
Nonfederal Payables
(To the Public)                                32,621.6                     1.2                32,622.8

Total Accounts Payable                     $   34,309.0         $           1.2           $    34,310.2


The Department recognized a $1.1 billion prior period adjustment to correct understated
Accounts Payable (Nonfederal) and related expenses for FY 2008. The Department also
corrected the methodology for reporting accruals for undistributed disbursements to prevent the
understatement beginning in FY 2009. Additionally, while migrating from a manual to an
automated interface between budget execution and financial statement reporting systems, the
Department identified a FY 2008 prior period adjustment to liabilities, resulting in $538.3 million
decrease to nonfederal payables. Refer to Note 26, Restatements, for additional details.
Accounts Payable includes amounts owed to federal and nonfederal entities for goods and
services received by the Department. The Department’s systems do not track intragovernmental
transactions by customer at the transaction level. Buyer-side accounts payable are adjusted to
agree with internal seller-side accounts receivable. Accounts Payable was adjusted by
reclassifying amounts between federal and nonfederal entities.




ADDENDUM A                                                                       Financial Information
                                                48
Department of Defense Agency Financial Report for FY 2009

Note 13. Debt
 Debt                                                                             Dollars in Millions

                                                          2009
                                                          Net
 As of September 30          Beginning Balance                               Ending Balance
                                                       Borrowing
Agency Debt
(Intragovernmental)
    Debt to the Treasury             $      245.7          $       146.0             $         391.7
    Debt to the Federal
                                             16.9                  (16.9)                         0.0
    Financing Bank
Total Debt                           $      262.6           $      129.1             $         391.7



 Debt                                                                             Dollars in Millions

                                                          2008
                                                          Net
 As of September 30          Beginning Balance                               Ending Balance
                                                       Borrowing
Agency Debt
(Intragovernmental)
    Debt to the Treasury             $      236.3           $        9.4             $         245.7
    Debt to the Federal
                                             70.7                  (53.8)                       16.9
    Financing Bank
Total Debt                           $      307.0           $      (44.4)            $         262.6


The Department’s debt consists of interest and principal payments due to the U.S. Treasury and
the Federal Financing Bank. The Department borrows funds for the Washington Aqueduct
Project, the Military Housing Privatization Initiative, and the Armament Retooling and
Manufacturing Support Program.
The Department must pay the debt on direct loans if borrowers (e.g. county or city governments,
ship owners, or housing builders) default. For loan guarantees, the Department must pay the
amount of outstanding principal guaranteed.




ADDENDUM A                                                                  Financial Information
                                              49
Department of Defense Agency Financial Report for FY 2009

Note 14. Environmental Liabilities and Disposal Liabilities

 Environmental Liabilities and Disposal Liabilities                                 Dollars in Millions



As of September 30                                          2009                    2008
Environmental Liabilities–Nonfederal
  Accrued Environmental Restoration Liabilities
   Active Installations—Installation Restoration Program
   (IRP) and Building Demolition and Debris Removal
   (BD/DR)                                                  $       7,957.4            $       8,873.5
   Active Installations—Military Munitions
   Response Program (MMRP)                                          5,223.5                    5,035.1

   Formerly Used Defense Sites-IRP & BD/DR
                                                                    3,452.9                    3,233.2
   Formerly Used Defense Sites--MMRP                               13,545.9                  14,859.0
  Other Accrued Environmental Liabilities—Non-BRAC
   Environmental Corrective Action                                   772.8                       812.8
   Environmental Closure Requirements                               2,193.7                    1,868.1
   Environmental Response at Operational Ranges                      164.0                       204.7
   Asbestos                                                         1,183.3                      428.6
   Non-Military Equipment                                            114.4                         89.2
   Other                                                            1,222.8                    1,118.2
  Base Realignment and Closure Installations (BRAC)
   Installation Restoration Program                                 3,684.7                    3,772.6
   Military Munitions Response Program                              1,063.6                    1,075.0
   Environmental Corrective Action / Closure Requirements            344.0                       372.8
  Environmental Disposal for Military Equipment /
  Weapons Programs
   Nuclear Powered Military Equipment /
   Spent Nuclear Fuel                                              12,672.4                  12,255.7
   Non-Nuclear Powered Military Equipment                              36.4                        39.1
   Other National Defense Weapons Systems                            194.4                       197.4
  Chemical Weapons Disposal Program
   Chemical Agents and Munitions Destruction (CAMD)                 6,956.0                  10,636.7
   CAMD Assembled Chemical Weapons Assessment
   (ACWA)                                                           5,447.8                    5,634.2
Total Environmental Liabilities                             $      66,230.0            $     70,505.9


Other Accrued Environmental Liabilities, Non-BRAC, Other primarily consists of remediation
related to Formerly Utilized Sites Remedial Action Program (FUSRAP). The Department is
responsible for FUSRAP, which remediates radiological contamination from the Department of
Energy’s U.S. Atomic Energy and Weapons Program.
The unrecognized portion of the estimated total cleanup costs associated with General PP&E is
$2.1 billion for FY 2009. Not all Components of the Department are able to compile the
necessary information for this disclosure, thus the amount reported may not accurately reflect
the Department’s total unrecognized costs associated with General PP&E. The Department is
implementing procedures to address these deficiencies.

ADDENDUM A                                                                    Financial Information
                                                       50
Department of Defense Agency Financial Report for FY 2009
Other Disclosures
Types of Environmental Liabilities and Disposal Liabilities Identified
The Department has cleanup requirements for Defense Environmental Restoration Program
(DERP) sites at active installations, BRAC installations, Formerly Used Defense Sites, sites at
active installations that are not covered by DERP, weapons systems programs, and chemical
weapons disposal programs. The weapons systems programs consist of chemical weapons
disposal, nuclear-powered aircraft carriers, nuclear-powered submarines, and other nuclear
ships. All cleanup is done in coordination with regulatory agencies, other responsible parties,
and current property owners.
Applicable Laws and Regulations for Cleanup Requirements
The Department is required to clean up contamination resulting from past waste disposal
practices, leaks, spills, and other past activity that created a public health or environmental risk.
The Department accomplishes this effort in coordination with regulatory agencies and, if
applicable, other responsible parties and current property owners. The Department is also
required to recognize closure and post-closure costs for its General PP&E and environmental
corrective action costs for current operations. Each of the Department’s major reporting entities
is responsible for tracking and reporting all required environmental information related to
environmental restoration costs, other accrued environmental costs, disposal costs of weapons
systems, and environmental costs related to BRAC actions that have taken place.
The Department follows the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), Superfund Amendment and Reauthorization Act, Resource
Conservation and Recovery Act (RCRA) or other applicable federal or state laws to clean up
contamination. The CERCLA and RCRA require the Department to clean up contamination in
coordination with regulatory agencies, current owners of property damaged by the Department,
and third parties that have a partial responsibility for the environmental restoration. Failure to
comply with agreements and legal mandates puts the Department at risk of incurring fines and
penalties.
The cleanup requirements for nuclear-powered aircraft carriers, submarines, and other nuclear
ships are based on laws that affect the Department’s conduct of environmental policy and
regulations. The Atomic Energy Act of 1954, as amended, assures the proper management of
source, special nuclear, and byproduct materiel. As in all cases with nuclear power, the
Department coordinates actions with the Department of Energy. The Nuclear Waste Policy Act
of 1982 requires all owners and generators of high-level nuclear waste and spent nuclear fuel to
pay their respective shares of the full cost of the program. Finally, the Low-Level Radioactive
Waste Policy Amendments Act of 1986 provides for the safe and efficient management of low-
level radioactive waste.
The Chemical Weapons Disposal Program is based on FY 1986 National Defense Authorization
Act (PL 99-145, as amended) that directed the Department to destroy the unitary chemical
stockpile in accordance with the requirements of the Chemical Weapons Convention Treaty.
The Army, as Executive Agent within the Department, provides policy, direction, and oversight
for both the Chemical Stockpile Program and the Nonstockpile Chemical Materiel Project. As
such, the Army is responsible for the safe and economical disposal of the U.S. stockpile of lethal
and incapacitating chemical warfare agents and munitions.




ADDENDUM A                                                                     Financial Information
                                                 51
Department of Defense Agency Financial Report for FY 2009
Methods for Assigning Total Cleanup Costs to Current Operating Periods
The Department uses engineering estimates and independently validated models to estimate
environmental costs. The models include the Remedial Action Cost Engineering Requirements
(RACER) application and the Normalization of Data (NORM) System. The Department
validates the models in accordance with DoD Instruction 5000.61 and uses the models to
estimate the liabilities based on data received during a preliminary assessment and initial site
investigation. The Department primarily uses engineering estimates after obtaining extensive
data during the remedial investigation/feasibility phase of the environmental project.
Once the environmental cost estimates are complete, the Department complies with accounting
standards to assign costs to current operating periods. The Department has already expensed
the costs for cleanup associated with General PP&E placed into service before October 1, 1997,
unless the costs are intended to be recovered through user charges. If the costs are to be
recovered through user charges, the Department expenses cleanup costs associated with that
portion of the asset life that has passed since the General PP&E was placed into service. The
Department systematically recognizes the remaining cost over the remaining life of the asset.
For General PP&E placed into service after September 30, 1997, the Department expenses
associated environmental costs systematically over the life of the asset using two methods:
physical capacity for operating landfills and life expectancy in years for all other assets. The
Department expenses the full cost to clean up contamination for Stewardship PP&E at the time
the asset is placed into service.
Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due
to Inflation, Deflation, Technology, or Applicable Laws and Regulations
The Department had changes in estimates resulting from overlooked or previously unknown
contaminants, reestimation based on different assumptions, and other changes in project scope.
Environmental liabilities may change in the future due to changes in laws and regulation,
changes in agreements with regulatory agencies, and advances in technology.
Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported
Environmental Liabilities
The environmental liabilities for the Department are based on accounting estimates, which
require certain judgments and assumptions that are reasonable based upon information
available at the time the estimates are calculated. The actual results may materially vary from
the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further
affected if investigation of the environmental sites reveals contamination levels that differ from
the estimate parameters.
The Department has a liability to take environmental restoration and corrective action for buried
chemical munitions and agents; however, it is unable to estimate at this time because the extent
of the buried chemical munitions and agents is unknown. The Department is also unable to
provide a complete estimate for FUSRAP. The Department has ongoing studies and will update
its estimate as additional liabilities are identified. In addition, not all Components of the
Department recognize environmental liabilities associated with General PP&E due to process
and system limitations.
The Department has the potential to incur costs for restoration initiatives in conjunction with
returning overseas Defense facilities to host nations. The Department is unable to provide a
reasonable estimate at this time because the extent of required restoration is unknown.



ADDENDUM A                                                                  Financial Information
                                               52
Department of Defense Agency Financial Report for FY 2009

Note 15. Other Liabilities

 Other Liabilities                                                                       Dollars in Millions

                                                                      2009
                                                                     Noncurrent
As of September 30                             Current Liability                            Total
                                                                      Liability
Intragovernmental
   Advances from Others                             $     1,619.9          $       0.0      $     1,619.9
   Deposit Funds and Suspense Account
                                                            471.4                  0.0              471.4
   Liabilities
   Disbursing Officer Cash                                2,419.6                  0.0            2,419.6
   Judgment Fund Liabilities                                171.9                  0.0              171.9
   FECA Reimbursement to the Department of
                                                            589.9               804.0             1,393.9
   Labor
   Custodial Liabilities                                  3,676.0               908.8             4,584.8
   Employer Contribution and
                                                            454.8                  0.0              454.8
   Payroll Taxes Payable
   Other Liabilities                                        369.4                  0.0              369.4
   Total Intragovernmental Other Liabilities         $    9,772.9      $       1,712.8      $ 11,485.7
Nonfederal
   Accrued Funded Payroll and Benefits               $    9,799.7      $           0.0      $     9,799.7
   Advances from Others                                   4,472.2                  0.0            4,472.2
   Deferred Credits                                          (0.3)                 0.0               (0.3)

   Deposit Funds and Suspense Accounts                      216.4                  0.0              216.4
   Nonenvironmental Disposal Liabilities
     Military Equipment (Nonnuclear)                          3.5               262.4               265.9
     Excess/Obsolete Structures                             105.6               599.0               704.6
     Conventional Munitions Disposal                          0.0              2,072.3            2,072.3
   Accrued Unfunded Annual Leave                          9,807.6                  0.0            9,807.6
   Capital Lease Liability                                   11.4               100.0               111.4

   Contract Holdbacks                                       659.9                  0.4              660.3
   Employer Contribution and Payroll Taxes
                                                            741.7                  0.0              741.7
   Payable
   Contingent Liabilities                                 1,237.3              2,913.2            4,150.5
   Other Liabilities                                        836.5                  1.1              837.6
   Total Nonfederal Other Liabilities                $   27,891.5      $       5,948.4      $   33,839.9
Total Other Liabilities                              $   37,664.4      $       7,661.2      $   45,325.6




ADDENDUM A                                                                        Financial Information
                                                    53
Department of Defense Agency Financial Report for FY 2009

 Other Liabilities                                                                          Dollars in Millions

                                                                    Restated 2008
                                                                      Noncurrent
As of September 30                             Current Liability                               Total
                                                                       Liability
Intragovernmental
   Advances from Others                              $      736.9            $        0.0          $     736.9
   Deposit Funds and Suspense Account
                                                            829.2                     0.0                829.2
   Liabilities
   Disbursing Officer Cash                                2,856.0                     0.0               2,856.0
   Judgment Fund Liabilities                                167.7                     0.1                167.8
   FECA Reimbursement to the Department of
                                                            548.0                  847.1                1,395.1
   Labor
   Custodial Liabilities                                  3,851.0                 1,619.4               5,470.4
   Employer Contribution and
                                                            377.7                     0.0                377.7
   Payroll Taxes Payable
   Other Liabilities                                        213.9                     0.0                213.9
   Total Intragovernmental Other Liabilities         $    9,580.4        $        2,466.6      $ 12,047.0
Nonfederal
   Accrued Funded Payroll and Benefits               $    8,143.1        $            0.0      $        8,143.1
   Advances from Others                                   3,144.4                     0.0               3,144.4
   Deposit Funds and Suspense Accounts                      325.2                     0.0                325.2
   Nonenvironmental Disposal Liabilities
     Military Equipment (Nonnuclear)                          7.7                  244.5                 252.2
     Excess/Obsolete Structures                             116.2                  616.6                 732.8
     Conventional Munitions Disposal                          0.0                 2,043.0               2,043.0
   Accrued Unfunded Annual Leave                          9,025.9                     0.0               9,025.9
   Capital Lease Liability                                    3.8                  142.5                 146.3

   Contract Holdbacks                                       558.9                   11.3                 570.2
   Employer Contribution and Payroll Taxes
                                                          1,844.1                     0.0               1,844.1
   Payable
   Contingent Liabilities                                 1,216.5                 5,968.0               7,184.5
   Other Liabilities                                        695.4                     0.5                695.9
   Total Nonfederal Other Liabilities                $   25,081.2        $        9,026.4      $       34,107.6
Total Other Liabilities                              $   34,661.6        $       11,493.0      $       46,154.6

As a result of ongoing audit readiness efforts, the Department identified adjustments to FY 2008
Custodial Liabilities, resulting in a $337.2 million increase in Total Intragovernmental Other
Liabilities. Refer to Note 26, Restatements, for further information.
Intragovernmental Other Liabilities primarily consists of unemployment compensation liabilities.
Contingent Liabilities includes $1.5 billion related to contracts authorizing progress payments
based on cost as defined in the Federal Acquisition Regulation (FAR). In accordance with
contract terms, specific rights to the contractors’ work vests with the Federal Government when
a specific type of contract financing payment is made. This action protects taxpayer funds in the
event of contract nonperformance. These rights should not be misconstrued as rights of
ownership. The Department is under no obligation to pay contractors for amounts greater than
the amounts authorized in contracts until delivery and government acceptance. Due to the

ADDENDUM A                                                                           Financial Information
                                                    54
Department of Defense Agency Financial Report for FY 2009
probability the contractors will complete their efforts and deliver satisfactory products, and
because the amount of potential future payments are estimable, the Department has recognized
a contingent liability for estimated future payments which are conditional pending delivery and
government acceptance.
Total contingent liabilities for progress payments based on cost represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be paid
under progress payments based on cost provisions within the FAR. Estimated contractor-
incurred costs are calculated by dividing the cumulative unliquidated progress payments based
on cost by the contract-authorized progress payment rate. The balance of unliquidated
progress payments based on cost is deducted from the estimated total contractor-incurred costs
to determine the contingency amount.
Nonfederal Other Liabilities primarily consists of accrued estimates for repairs and cargo
expenses.
 Capital Lease Liability                                                                                         Dollars in Millions

                                                               2009 — Asset Category
                                     Land and
 As of September 30                                           Equipment                   Other                        Total
                                     Buildings
Future Payments Due
   2010                          $           43.9                         0.0                     0.0                          43.9
   2011                                      41.3                         0.0                     0.0                          41.3
   2012                                      15.5                         0.0                     0.0                          15.5
   2013                                      11.1                         0.0                     0.0                          11.1
   2014                                          8.8                      0.0                     0.0                           8.8
   After 5 Years                                 8.7                      0.0                     0.0                           8.7
   Total Future Lease
                                 $          129.3                $        0.0         $           0.0        $             129.3
   Payments Due
   Less: Imputed Interest
                                             17.9                         0.0                     0.0                          17.9
   Executory Costs
Net Capital Lease Liability      $          111.4                $        0.0         $           0.0        $             111.4
Capital Lease Liabilities Covered by Budgetary Resources                                                                       98.4
Capital Lease Liabilities Not Covered by Budgetary Resources                                                                   13.0
 Capital Lease Liability                                                                                         Dollars in Millions

                                                                      2008 — Asset Category
                                            Land and
 As of September 30                                                  Equipment                 Other                    Total
                                            Buildings
Future Payments Due
   2009                                      $          43.9          $         1.5                    0.0                     45.4
   2010                                                 43.9                    0.0                    0.0                     43.9
   2011                                                 41.3                    0.0                    0.0                     41.3
   2012                                                 15.5                    0.0                    0.0                     15.5
   2013                                                 11.1                    0.0                    0.0                     11.1
   After 5 Years                                        17.3                    0.0                    0.0                     17.3
   Total Future Lease Payments Due           $         173.0          $         1.5        $           0.0         $       174.5
   Less: Imputed Interest Executory Costs               28.2                    0.0                    0.0                     28.2
Net Capital Lease Liability                  $         144.8          $         1.5       $            0.0         $       146.3
Capital Lease Liabilities Covered by Budgetary Resources                                                                   123.9
Capital Lease Liabilities Not Covered by Budgetary Resources                                                                   22.4

ADDENDUM A                                                                                         Financial Information
                                                         55
Department of Defense Agency Financial Report for FY 2009

Note 16. Commitments and Contingencies
Legal Contingencies
The Department is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests. The
Department has accrued contingent liabilities for legal actions where the Office of General
Counsel (OGC) considers an adverse decision probable and the amount of loss is measurable.
In the event of an adverse judgment against the Government, some of the liabilities may be
payable from the U.S. Treasury Judgment Fund. The Department records Judgment Fund
liabilities in Note 12, Accounts Payable, and in Note 15, Other Liabilities.
In FY 2009, the Department reported 49 legal actions with individual claims greater than the
Department's FY 2009 materiality threshold of $118.9 million. The total of the 49 actions is
approximately $2.4 trillion. Of this amount, the OGC determined that claims totaling
approximately $7.7 billion are classified "reasonably possible," $39.5 billion are classified
"remote," and $2.3 trillion are classified "unable to determine the probability of loss." The
Department also had a number of potential claims that individually did not meet the
Department's materiality threshold but did meet the individual Components' thresholds. These
claims are disclosed in the Components' financial statements.
Other Commitments and Contingencies
Undelivered orders for open (unfilled or unreconciled) contracts citing cancelled appropriations,
for which the Department may incur a contractual commitment for payment, total $803.7 million.
The Department is a party in numerous individual contracts that contain clauses, such as price
escalation, award fee payments, or dispute resolution, that may result in a future outflow of
expenditures. Currently, the Department has limited automated system processes by which it
captures or assesses these potential contingent liabilities, therefore, the amounts reported may
not fairly present the Department’s contingent liabilities.
Contingencies considered both measurable and probable have been recognized as liabilities.
Refer to Note 15, Other Liabilities, for further details.
Note 17. Military Retirement and Other Federal Employment Benefits

 Military Retirement and Other Federal Employment Benefits                                Dollars in Millions

                                                                   2009
                                                     Assumed          (Less: Assets
                                                                                           Unfunded
                                 Liabilities       Interest Rate     Available to Pay
 As of September 30                                                                        Liabilities
                                                        (%)             Benefits)
Pension and Health Actuarial
Benefits
  Military Retirement Pensions   $   1,173,456.3             5.75         $ (271,798.1)      $   901,658.2
  Military Retirement Health
                                      313,959.2              5.75                   0.0          313,959.2
  Benefits
  Military Medicare-Eligible
                                      509,466.4              5.75           (145,850.2)          363,616.2
  Retiree Benefits
  Total Pension and Health
                                 $   1,996,881.9                          $ (417,648.3)      $ 1,579,233.6
  Actuarial Benefits




ADDENDUM A                                                                         Financial Information
                                                   56
Department of Defense Agency Financial Report for FY 2009

 Military Retirement and Other Federal Employment Benefits                                                       Dollars in Millions

                                                                                         2009
                                                                         Assumed      (Less: Assets
                                                                                                                   Unfunded
                                                        Liabilities    Interest Rate Available to Pay
 As of September 30                                                                                                Liabilities
                                                                            (%)         Benefits)
Other Actuarial Benefits
   FECA                                             $        6,318.2               4.2          $         0.0       $      6,318.2
   Voluntary Separation Incentive Programs                   1,042.1               4.5                (450.4)                591.7
   DoD Education Benefits Fund                               1,797.2               4.5              (1,797.2)                  0.0
   Total Other Actuarial Benefits                   $        9,157.5                        $       (2,247.6)       $      6,909.9
Other Federal Employment Benefits                   $        6,126.7                        $       (4,525.3)       $      1,601.4
Total Military Retirement and Other                 $ 2,012,166.1                           $ (424,421.2)           $ 1,587,744.9
Federal Employment Benefits
 Actuarial Cost Method Used: Aggregate Entry-Age Method
 Assumptions: Effective Interest
 Market Value of Investments in Market-based and Marketable Securities: $441.2 billion


 Military Retirement and Other Federal Employment Benefits                                                       Dollars in Millions

                                                                                 2008
                                                                   Assumed          (Less: Assets
                                                                                                                  Unfunded
                                            Liabilities          Interest Rate     Available to Pay
 As of September 30                                                                                               Liabilities
                                                                      (%)             Benefits)
Pension and Health Actuarial
Benefits
  Military Retirement Pensions             $   1,150,748.8                  5.75          $ (246,956.7)             $   903,792.1
  Military Retirement Health
                                                 317,967.9                  5.75                        0.0             317,967.9
  Benefits
  Military Medicare-Eligible
                                                 500,195.7                  5.75            (131,941.1)                 368,254.6
  Retiree Benefits
  Total Pension and Health
                                           $   1,968,912.4                                $ (378,897.8)             $ 1,590,014.6
  Actuarial Benefits


 Military Retirement and Other Federal Employment Benefits                                                       Dollars in Millions

                                                                                         2008
                                                                         Assumed      (Less: Assets
                                                                                                                   Unfunded
                                                        Liabilities    Interest Rate Available to Pay
 As of September 30                                                                                                Liabilities
                                                                            (%)         Benefits)
Other Actuarial Benefits
   FECA                                            $         6,862.2               4.4      $              0.0     $       6,862.2
   Voluntary Separation Incentive Programs                   1,146.0               4.5                 (501.5)               644.5
   DoD Education Benefits Fund                               1,959.2               4.5               (1,817.3)               141.9
   Total Other Actuarial Benefits                   $        9,967.4                       $        (2,318.8 )      $      7,648.6
Other Federal Employment Benefits                   $        5,725.6                       $        (3,988.2)       $      1,737.4
Total Military Retirement and Other                 $ 1,984,605.4                           $ (385,204.8)           $ 1,599,400.6
Federal Employment Benefits
 Actuarial Cost Method Used: Aggregate Entry-Age Method
 Assumptions: Effective Interest
 Market Value of Investments in Market-based and Marketable Securities: $374.5 billion



ADDENDUM A                                                                                             Financial Information
                                                                57
Department of Defense Agency Financial Report for FY 2009
Military Retirement Pensions
The Military Retirement Fund (MRF) is a defined benefit plan authorized by PL 98-94 to provide
funds used to pay annuities and pensions to retired military personnel and their survivors. The
DoD Retirement Board of Actuaries approves the long-term economic assumptions for inflation,
salary, and interest. The actuaries calculate the actuarial liabilities annually using economic
assumptions and actual experience (e.g., mortality and retirement rates). Due to reporting
deadlines, the current year actuarial present value of projected plan benefits rolls forward from
the prior year’s valuation results. The actuaries used the following assumptions to calculate the
FY 2009 roll-forward amount:


 Military Retirement Pensions                           Inflation                  Salary                Interest
 Fiscal Year 2009                                5.8% (actual)             3.9% (actual)                  5.75%
 Fiscal Year 2010                                0.0% (estimated)          3.4% (estimated)               5.75%
 Long Term                                       3.0%                      3.75%                          5.75%

Historically, the initial unfunded liability of the program was amortized over a 50-year period.
Effective FY 2008, the initial unfunded liability is amortized over a 42-year period to ensure the
annual payments cover the interest on the unfunded actuarial liability, with the last payment
expected to be made October 1, 2025. All subsequent gains and losses experienced are
amortized over a 30-year period.


 Change in MRF Actuarial Liability                                                                       Dollars in Billions
 Actuarial Liability as of September 30, 2008                                                 $                 1,150.7
 Expected Normal Cost for FY 2009                                                                                   22.5
 Plan Amendment Liability                                                                                              .3
 Assumption Change Liability                                                                                         7.8
 Expected Benefit Payments for FY 2009                                                                            (50.5)
 Interest Cost for FY 2009                                                                                          65.6
 Actuarial (gains)/losses due to changes in trend assumptions                                                     (23.0)
 Actuarial Liability as of September 30, 2009                                                                   1,173.4
 Change in Actuarial Liability                                                                $                     22.7
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $286.2
 Assumed Interest Rate: 5.75%


Military Retirement Health Benefits
The Military Retirement Health Benefits (MRHB) are post-retirement benefits the Department
provides to non-Medicare-eligible military retirees and other eligible beneficiaries through private
sector health care providers and the Department’s medical treatment facilities. The actuaries
calculate the actuarial liabilities annually using assumptions and actual experience. For the FY
2009 actuarial liability calculation, the actuaries used the following assumptions:




ADDENDUM A                                                                                        Financial Information
                                                             58
Department of Defense Agency Financial Report for FY 2009

                                                                                             Ultimate Rate
 MRHB Medical Trend                                              FY 2008 – FY 2009
                                                                                                FY 2033
 Medicare Inpatient (Direct Care)                                             5.13%                    6.25%
 Medicare Outpatient (Direct Care)                                            4.13%                    6.25%
 Medicare Prescriptions (Direct Care)                                         3.00%                    6.25%
 Non-Medicare Inpatient (Direct Care)                                         4.00%                    6.25%
 Non-Medicare Outpatient (Direct Care)                                        3.00%                    6.25%
 Non-Medicare Prescriptions (Direct Care)                                     3.00%                    6.25%
 Non-Medicare Inpatient (Purchased Care)                                      7.32%                    6.25%
 Non-Medicare Outpatient (Purchased Care)                                     9.95%                    6.25%
 Non-Medicare Prescriptions (Purchased Care)                                  7.96%                    6.25%
 U.S. Family Health Plan (USFHP) (Purchased Care)                             9.00%                    6.25%



 Change in MHRB Actuarial Liability                                                              Dollars in Billions
 Actuarial Liability as of September 30, 2008 (Department preMedicare + all
 Uniformed Services Medicare cost-benefit effect)                                     $                   318.0
 Expected Normal Cost for FY 2009                                                                           10.9
 Expected Benefit Payments for FY 2009                                                                    (10.6)
 Interest Cost for FY 2009                                                                                  18.6
 Actuarial (gains)/losses due to other factors                                                            (25.1)
 Actuarial (gains)/losses due to changes in trend assumptions                                                2.2
 Actuarial Liability as of September 30, 2009 (Department preMedicare + all
 Uniformed Services Medicare cost-benefit effect)                                     $                   314.0
 Change in Actuarial Liability                                                        $                     (4.0)
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Assumed Interest Rate: 5.75%



Medicare-Eligible Retiree Health Care Fund Benefits
In accordance with PL 106-398, Medicare-Eligible Retiree Health Care Fund (MERHCF)
accumulates funds to finance the health care program liabilities of Medicare-eligible retirees for
all the Uniformed Services and specific Medicare-eligible beneficiaries. The DoD MERHCF
Board of Actuaries approves the long-term assumptions for medical trends and interest. The
actuaries calculate the actuarial liabilities annually using actual experience (e.g., mortality and
retirement rates, direct care costs, purchased care). Due to reporting deadlines, the current
year actuarial present value of projected plan benefits rolls forward from the prior year’s results.
The actuaries used the following assumptions to calculate the FY 2009 roll-forward amount:


                                                                                             Ultimate Rate
 MERHCF Benefits — Medical Trend                                  FY 2008 – FY 2009
                                                                                                FY 2033
 Medicare Inpatient (Direct Care)                                                5.13%                      6.25%
 Medicare Inpatient (Purchased Care)                                             6.13%                      6.25%
 Medicare Outpatient (Direct Care)                                               4.13%                      6.25%
 Medicare Outpatient (Purchased Care)                                            5.13%                      6.25%
 Medicare Prescriptions (Direct Care)                                            3.00%                      6.25%
 Medicare Prescriptions (Purchased Care)                                         8.44%                      6.25%
 USFHP (Purchased Care)                                                          9.00%                      6.25%


ADDENDUM A                                                                                Financial Information
                                                          59
Department of Defense Agency Financial Report for FY 2009

 Change in MERHCF Actuarial Liability                                                           Dollars in Billions
 Actuarial Liability as of September 30, 2008
 (all Uniformed Services Medicare)                                                         $             500.2
 Expected Normal Cost for FY 2009                                                                          10.4
 Expected Benefit Payments for FY 2009                                                                     (8.4)
 Interest Cost for FY 2009                                                                                 29.1
 Actuarial (gains)/losses due to other factors                                                           (18.6)
 Actuarial (gains)/losses due to changes in trend assumptions                                             ( 3.2)
 Actuarial Liability as of September 30, 2009
 (all Uniformed Services Medicare)                                                         $             509.5
 Change in Actuarial Liability                                                             $               9.3
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $152.4 Million
 Assumed Interest Rate: 5.75%


The MERHCF liability includes Medicare liabilities for all Uniformed Services. The $509.5 billion
liability includes $498.1 billion for the Department, $10.2 billion for the Coast Guard, $1.1 billion
for the Public Health Service, and $72.3 million for National Oceanic and Atmospheric
Administration (NOAA). The FY 2009 contributions from each of the Uniformed Services were
$10.4 billion from the Department, $257.3 million from the Coast Guard, $34.8 million from the
Public Health Service, and $1.7 million from NOAA.
Federal Employees Compensation Act (FECA)
The Department of Labor (DOL) annually determines the liability for future workers’
compensation benefits, which includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred-but-not-
reported claims. The liability is determined using historical benefit payment patterns related to a
specific incurred period to predict the final payment related to that period. Consistent with past
practice, these projected annual benefit payments have been discounted to present value using
the Office of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes
and bonds. A 4.22% interest rate was assumed for year one and 4.71% was assumed for year
two and thereafter.
The DOL calculates this liability using wage inflation factors (cost of living adjustments or
COLAs) and medical inflation factors (consumer price index medical or CPIM). The actual rates
for these factors for charge back year (CBY) 2009 were also used to adjust the methodology’s
historical payments to current year constant dollars. The compensation COLAs and CPIMs
used in the projections for various charge back years were as follows:




ADDENDUM A                                                                               Financial Information
                                                              60
Department of Defense Agency Financial Report for FY 2009

                         Federal Employees — Compensation Act (FECA)
              CBY                           COLA                                 CPIM
              2010                              .47%                             3.42%
              2011                             1.40%                             3.29%
              2012                             1.50%                             3.48%
              2013                             1.80%                             3.71%
              2014+                            2.00%                             3.71%


The model’s resulting projections were analyzed by DOL to ensure the estimates were reliable.
The analysis was based on four tests: (1) a sensitivity analysis of the model of economic
assumptions, (2) a comparison of the percentage change in the liability amount to the
percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2009 to the average pattern observed
during the prior three charge back years, and (4) a comparison of the estimated liability per case
in the 2009 projection to the average pattern for the projections for the most recent three years.
Voluntary Separation Incentive Program
PL 102-190 established the Voluntary Separation Incentive (VSI) Program to reduce the number
of military personnel on active duty. The VSI Board of Actuaries approved the assumed annual
interest rate of 4.5% used to calculate the actuarial liability. Since the VSI Program is no longer
offered, the actuarial liability calculated annually is expected to continue to decrease with benefit
outlays and increase with interest cost.
Market Value of Investments in Market-based and Marketable Securities: $481.6 million
DoD Education Benefits Fund
PL 98-525 established the Education Benefits Fund (EBF) program to recruit and retain military
members and aid in the readjustment of military members to civilian life. The actuaries
calculate the actuarial liability annually based on the assumed interest rate of 4.5% that was
approved by the EBF Board of Actuaries.
Market Value of Investments in Market-based and Marketable Securities: $2.1 billion
Other Federal Employment Benefits
Other Federal Employment Benefits primarily consists of accrued pensions and annuities, and
an estimated liability for incurred-but-not-reported medical claims not processed prior to fiscal
year end.




ADDENDUM A                                                                     Financial Information
                                                 61
Department of Defense Agency Financial Report for FY 2009

Note 18. General Disclosures Related to the Statement of Net Cost

 General Disclosures Related to the Statement of Net Cost                               Dollars in Millions

                                                                                        Restated
 As of September 30                                              2009
                                                                                          2008
 Intragovernmental Costs                                    $        33,891.6       $           26,771.0
 Public Costs                                                       663,921.7                 699,656.3
 Total Costs                                                $       697,813.3       $         726,427.3
 Intragovernmental Earned Revenue                                   (10,577.0)                (29,652.6)
 Public Earned Revenue                                              (35,590.9)                (26,619.9)
 Total Earned Revenue                                       $       (46,167.9)      $         (56,272.5)
 Net Cost of Operations                                     $       651,645.4       $         670,154.8

The Department restated FY 2008 gross costs by $8.1 billion. As a result of ongoing audit
readiness efforts, the Department identified $7.2 billion in contract financing payments classified
as expenses rather than assets due to legacy system deficiencies. The Department also
recognized a $1.1 billion prior period adjustment to correct understated Accounts Payable
(Nonfederal) and related expenses for FY 2008. The Department corrected the methodology for
reporting accruals for undistributed disbursements to prevent the understatement beginning in
FY 2009. These reductions were offset by a $233 million increase in expenses related to
inventory accounting. Refer to Note 26, Restatements, for further information.
Abnormal Balance
Contra Revenue for Services Provided (USSGL 5209) has an abnormal balance of $9.2 million.
When the Department provides service to a public customer, an additional surcharge is added
to the billing and posted to this account. The surcharge is reclassified to the Revenue from
Services Provided account when collected. The Department is researching the issue.
Other Disclosures
The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal government supported by appropriations or other means. The intent of the SNC is to
provide gross and net cost information related to the amount of output or outcome for a given
program or organization administered by a responsible reporting entity. The Department’s
current processes and systems do not capture and report accumulated costs for major
programs based upon the performance measures as required by the Government Performance
and Results Act. The Department is in the process of reviewing available data and developing a
cost reporting methodology as required by the SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, as amended by SFFAS No. 30, Inter-
entity Cost Implementation.
Intragovernmental costs and revenue represent transactions made between two reporting
entities within the Federal government. Public costs and revenues are exchange transactions
made between the reporting entity and a nonfederal entity.
The Department’s systems do not track intragovernmental transactions by customer at the
transaction level. Buyer-side expenses are adjusted to agree with internal seller-side revenues.
Expenses are generally adjusted by reclassifying amounts between federal and nonfederal
expenses. Intradepartmental reciprocal balances are then eliminated.
The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. Amounts are adjusted for

ADDENDUM A                                                                       Financial Information
                                                62
Department of Defense Agency Financial Report for FY 2009
accruals such as payroll expenses, accounts payable, and environmental liabilities. The
General Fund data is primarily derived from budgetary transactions (obligations, disbursements,
and collections), data from nonfinancial feeder systems, and accruals made for major items.
While Working Capital Funds primarily record transactions on an accrual basis, the systems do
not always capture actual costs in a timely manner.
The Department’s accounting systems generally do not capture information relative to heritage
assets separately and distinctly from normal operations.
Note 19. Disclosures Related to the Statement of Changes in Net Position
Contra Revenue for Services Provided (USSGL 5209) has an abnormal balance of $9.2 million.
Refer to Note 18, General Disclosures Related to the Statement of Net Cost, for additional
information.
The Department recognized prior period adjustments decreasing the beginning balances of
Cumulative Results of Operations by $8.8 billion and $10.5 billion for FY 2009 and FY 2008,
respectively. Unexpended Appropriations beginning balances increased $26.1 billion and $20.0
billion for FY 2009 and FY 2008, respectively, due to the correction of errors from prior years.
Refer to Note 26, Restatements, for additional information on all prior period adjustments.
Other Financing Sources, Other consists primarily of adjustments to reconcile budgetary and
proprietary trial balances. Due to financial system limitations, the Department adjusts for these
unreconciled differences.
Earmarked Cumulative Results of Operations ending balance on the Statement of Changes in
Net Position (SCNP) does not agree with the Earmarked Cumulative Results reported on the
Balance Sheet because the cumulative results on the Balance Sheet are presented net of
eliminations.    In the SCNP, offsetting balances for intradepartmental activity between
Earmarked Funds and All Other Funds are reported on the same lines. The Eliminations
column contains all appropriate elimination entries, which net to zero within each respective line,
except for intraentity imputed financing costs.
Appropriations Received on the SCNP do not match the Appropriations on the Statement of
Budgetary Resources (SBR) due to trust fund appropriations and special fund receipts. The
difference of $101.1 billion is primarily related to the MRF and MERHCF appropriations. In
order to preserve visibility with the President’s Budget, these appropriations are effectively
reported twice on the SBR; they are reported once by the Military Departments and Defense
Agencies as appropriated and once by the individual trust funds as receipts. Refer to Note 20,
Disclosures Related to the Statement of Budgetary Resources, for further details.




ADDENDUM A                                                                   Financial Information
                                                63
Department of Defense Agency Financial Report for FY 2009

Note 20. Disclosures Related to the Statement of Budgetary Resources
    Disclosures Related to the Statement of Budgetary Resources                               Dollars in Millions
                                                                                                Restated
    As of September 30, 2009                                                    2009
                                                                                                 2008
    Net Amount of Budgetary Resources Obligated for Undelivered Orders at
                                                                            $   451,881.1     $     433,190.8
    the End of the Period.

Reconciliation Differences
Appropriations Received on the Statement of Budgetary Resources (SBR) exceeds
Appropriations Received on the Statement of Changes in Net Position by $101.1 billion. This
difference represents trust and special fund receipts reported as exchange revenue on the SNC
and included in appropriations on the SBR. In accordance with Office of Management and
Budget guidance, $94.1 billion of General Fund appropriations received by the Department are
also recognized on the SBR as appropriations received for trust and special funds. The
difference is primarily due to duplicate reporting in the SBR of the Military Services’
contributions and U.S. Treasury’s payments to the MRF and the MERHCF.
The SBR comparative column (FY 2008) includes $90.1 billion more in budget authority than
reported in the 2008 actual column of the President’s FY 2010 Budget. The difference is
primarily due to the duplicate reporting discussed above and advances the U.S. Army Corps of
Engineers (USACE) received from the District of Columbia. USACE reports the advances
(account 96X6094) in its SBR. However, this account is not included in the budget.
The SBR FY 2008 column includes $808.8 million more in obligations than reported in the 2008
actual column of the President’s FY 2010 Budget. The difference is primarily due to FY 2007
obligations that were not included in the SBR until FY 2008. These obligations were reported
correctly in the 2007 column of the President’s Budget.
The SBR FY 2008 column includes $70.2 billion less in net outlays than reported in the 2008
actual column of the President’s FY 2010 Budget. The SBR reduces net outlays by the
distributed offsetting receipts. The President’s Budget does not reduce the Department’s
outlays by the distributed offsetting receipts.
Permanent Indefinite Appropriations
The Department of Defense (DoD) received the following permanent indefinite appropriations:
•      Department of the Army General Gift Fund (10 USC 2601(b)(1))
•      Department of the Navy General Gift Fund (10 USC 2601(b)(2))
•      Department of the Air Force General Gift Fund (10 USC 2601 (b)(3))
•      Department of Defense General Gift Fund (10 USC 2601)
•      Disposal of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
•      Lease of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
•      Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
•      United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
•      Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
•      Midshipmen’s Store (10 USC 6971B)
•      Burdensharing Contributions Account (10 USC 2350j)

ADDENDUM A                                                                             Financial Information
                                                        64
Department of Defense Agency Financial Report for FY 2009
•   Forest Program (10 USC 2665)
•   DoD Base Closure Account (10 USC 2687)
•   Medicare Eligible Retiree Health Care Fund (MERHCF) (10 USC 1111)
•   Military Retirement Fund (MRF) (10 USC 1461)
•   Education Benefits Fund (10 USC 2006)
•   Host Nation Support for U.S. Relocation Activities (10 USC 2350k)
•   National Defense Sealift Fund (10 USC 2218)
•   Environmental Restoration, Navy (10 USC 2702)
•   Hydraulic Mining Debris Reservoir (33 USC 683)
•   Maintenance and Operation of Dams and Other Improvements of Navigable Waters
    (16 USC 810(a))
•   Payments to States (33 USC 701c-3)
•   Wildlife Conservation (16 USC 670-670(f))
•   Ainsworth Bequest (31 USC 1321)
•   DoD Family Housing Improvement Fund (10 USC 2883 (a))
•   DoD Military Unaccompanied Housing Improvement Fund (10 USC 2883 (a))
•   Voluntary Separation Incentive Fund (10 USC 1175(h))
•   Rivers & Harbors Contributed Funds (33 USC 560, 701h)
The above permanent indefinite appropriations cover a wide variety of purposes to help the
Department accomplish its missions. These purposes include: (1) military retirees health care
benefits, retirement and survivor pay, and education benefits for veterans; (2) environmental,
coastal, and wildlife habitat restoration, and water resources maintenance; (3) costs associated
with the closure or realignment of military installations; (4) relocation of armed forces to a host
nation; (5) separation payments for foreign nationals; (6) the construction, purchase, alteration,
and conversion of sealift vessels; and (7) upkeep of libraries and museums.
Apportionment Categories for Obligations incurred
The Department reported the following amounts of direct obligations: (1) $560.9 billion in
category A; (2) $287.8 billion in category B; and (3) $306.6 million in exempt from
apportionment. The Department reported reimbursable obligations of $22.0 billion in category A
and $161.3 billion in category B. Category A relates to appropriations for a specific period of
time (e.g., Military Personnel appropriation), and category B relates to appropriations for a
specific project (e.g., Military Construction appropriation).
Legal Arrangements Affecting the Use of Unobligated Balances
A portion of the Department’s unobligated balances represents trust fund receipts collected in
the current fiscal year that exceed the amount needed to pay benefits or other valid obligations.
These receipts are temporarily precluded from obligation by law due to a benefit formula or
other limitation. The receipts, however, are assets of the funds and are available for obligation
as needed in the future. The Department operates within the constraints of fiscal law and has
no additional legal arrangements affecting the use of unobligated balances.



ADDENDUM A                                                                   Financial Information
                                                65
Department of Defense Agency Financial Report for FY 2009
Other Disclosures
The President’s budget for FY 2011 has not yet been published. The budget is expected to be
published in February 2010, and available at: http://www.defenselink.mil/comptroller/defbudget.
The SBR includes intraentity transactions because the statements are presented as combined.
The Department utilizes borrowing authority for the Military Housing Privatization Initiative and
the Armament Retooling and Manufacturing Support Initiative. Borrowing authority is used in
accordance with OMB Circular No. A-129, Policies for Federal Credit Programs and Non-Tax
Receivables.
The Department received additional funding of $152.4 billion (net of rescissions) to cover
obligations incurred above baseline operations, primarily in support of the Overseas
Contingency Operations and disaster relief. In addition, the Department received $12.0 billion
of funding from the American Recovery and Reinvestment Act of 2009.
Note 21. Reconciliation of Net Cost of Operations to Budget

 Reconciliation of Net Cost of Operations to Budget                                              Dollars in Millions

                                                                                                     Restated
 As of September 30, 2009 and 2008                                               2009
                                                                                                      2008
 Resources Used to Finance Activities
 Budgetary Resources Obligated:
   Obligations incurred                                                      $   1,032,310.5     $    1,001,667.5
   Less: Spending authority from offsetting collections and recoveries (-)       (244,491.8)           (232,293.7)
   Obligations net of offsetting collections and recoveries                  $    787,818.7      $      769,373.8
   Less: Offsetting receipts (-)                                                  (65,912.1)            (70,247.6)
   Net Budgetary Resources Obligated                                         $    721,906.6      $      699,126.2
 Other Resources:
   Donations and forfeitures of property                                     $            2.2    $              1.5
   Transfers in/out without reimbursement (+/-)                                         (42.8)              (51.2)
   Imputed financing from costs absorbed by others                                   4,703.8              4,174.9
   Other (+/-)                                                                       1,253.7              6,974.1
   Net other resources used to finance activities                            $       5,916.9     $       11,099.3
 Total resources used to finance activities                                  $    727,823.5      $      710,225.5
 Resources Used to Finance Items not Part of the Net Cost of
 Operations
 Change in budgetary resources obligated for goods, services and
 benefits ordered but not yet provided:
    Undelivered Orders (-)                                                   $    (44,519.1)     $      (83,404.5)
    Unfilled Customer Orders                                                           931.8               6,444.9
 Resources that fund expenses recognized in prior
                                                                                  (13,878.5)            (29,958.6)
 Periods (-)
 Budgetary offsetting collections and receipts that do not affect Net Cost
                                                                                     1,928.6              2,562.6
 of Operations
 Resources that finance the acquisition of assets (-)                        $   (145,039.9)     $     (139,518.3)




ADDENDUM A                                                                                 Financial Information
                                                          66
Department of Defense Agency Financial Report for FY 2009


 Reconciliation of Net Cost of Operations to Budget                                                   Dollars in Millions

                                                                                                       Restated
 As of September 30, 2009 and 2008                                               2009
                                                                                                        2008
 Other resources or adjustments to net obligated resources that do
 not affect Net Cost of Operations:
       Less: Trust or Special Fund Receipts Related to exchange in the
                                                                         $              (10.0)     $             (10.0)
       Entity’s Budget (-)
        Other (+/-)                                                                24,615.8                   14,112.7
 Total resources used to finance items not part of the Net Cost of
                                                                         $       (175,971.3)       $       (229,771.2)
 Operations
 Total resources used to finance the Net Cost of Operations              $        551,852.2           $     480,454.3
 Components of the Net Cost of Operations that will not Require or
 Generate Resources in the Current Period
 Components Requiring or Generating Resources in Future Period:
      Increase in annual leave liability                                 $              819.9     $              646.0
      Increase in environmental and disposal liability                                  929.2                  1,813.2
      Upward/Downward reestimates of credit subsidy
                                                                                          0.4                      (1.7)
      expense (+/-)
      Increase in exchange revenue receivable from the public (-)                     815.5                     (24.7)
      Other (+/-)                                                                  32,691.5                 139,220.3
 Total components of Net Cost of Operations that will Require or
                                                                             $     35,256.5        $        141,653.1
 Generate Resources in future periods
 Components not Requiring or Generating Resources:
 Depreciation and amortization                                               $     41,355.9        $          37,690.3
 Revaluation of assets or liabilities (+/-)                                         5,969.1                    8,387.5
 Other (+/-)
       Trust Fund Exchange Revenue                                                (34,909.0)                (46,429.9)
       Cost of Goods Sold                                                           73,037.1                  64,716.5
       Operating Material and Supplies Used                                         30,868.3                  25,695.8
       Other                                                                      (51,784.7)                (42,012.9)
 Total Components of Net Cost of Operations that will not Require
                                                                         $         64,536.7        $          48,047.4
 or Generate Resources
 Total components of Net Cost of Operations that will not Require
                                                                         $         99,793.2        $        189,700.5
 or Generate Resources in the current period
 Net Cost of Operations                                                  $        651,645.4        $        670,154.8

Due to the Department’s financial system limitations, budgetary data do not agree with
proprietary expenses and capitalized assets. The difference between budgetary and proprietary
data is a previously identified deficiency. The following adjustments (absolute value) were
made to balance the Reconciliation of Net Cost of Operations to the Statement of Net Cost:
                                                                                                 (Amounts in millions)

 Resources that Finance the Acquisition of Assets                                                             $4,383.8
 Other Components not Requiring or Generating Resources                                                            26.2
 Total Amount                                                                                                 $4,410.0




ADDENDUM A                                                                                 Financial Information
                                                      67
Department of Defense Agency Financial Report for FY 2009
The following Reconciliation of Net Cost of Operations to Budget lines are presented as
combined, instead of consolidated, due to intraagency budgetary transactions not being
eliminated:
•   Obligations Incurred
•   Less: Spending Authority from Offsetting Collections and Recoveries
•   Obligations Net of Offsetting Collections and Recoveries
•   Less: Offsetting Receipts
•   Net Obligations
•   Undelivered Orders
•   Unfilled Customer Orders
Other Resources, Other, primarily consists of $1.2 billion in transfers in or out of fixed assets
without reimbursement and various nonexchange gains and losses that have no budgetary
impact.
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of
Operations, Other, primarily consists of $26.9 billion in prior period adjustments to properly
recognize payments related to shipbuilding procurement costs as contract financing payments.
Refer to Note 26, Restatements, for further details. This adjustment is partially offset by the
$1.2 billion in transfers and nonexchange gains and losses referenced above.
Components Requiring or Generating Resources in Future Period, Other, primarily consists of
future funded expenses for the current year change in actuarial liabilities of $22.7 billion and the
increase in contingent liabilities. Refer to Note 17, Military Retirement and Other Federal
Employment Benefits, for additional disclosures on the change in actuarial liabilities.
Components not Requiring or Generating Resources, Other, primarily consists of cost
capitalization offsets and other expenses not requiring budgetary resources.
Note 22. Disclosures Related to Incidental Custodial Collections

The Department collected $1.2 million of incidental custodial revenues generated primarily from
the collection of fines, penalties, and forfeitures. These funds are not available for use by the
Department. At the end of each fiscal year, the accounts are closed and the balances rendered
to the U.S. Treasury.




ADDENDUM A                                                                    Financial Information
                                                68
Department of Defense Agency Financial Report for FY 2009
Note 23. Earmarked Funds
Earmarked Funds                                                                                                  Dollars in Millions
                                                                             2009
                                                     Medicare-
                                  Military            Eligible            Other
                                 Retirement           Retiree           Earmarked          Eliminations                 Total
                                   Fund             Health Care           Funds
As of September 30                                     Fund
Balance Sheet
Assets
 Fund balance with Treasury       $        20.5     $            5.0     $     2,246.2          $         0.0       $     2,271.7
 Investments                          278,347.0          148,403.4             8,133.7                    0.0           434,884.1
 Accounts and Interest
                                           31.9                424.7             988.3                   (6.0)            1,438.9
 Receivable
 Other Assets                               0.0                  0.0           2,136.9                    0.0             2,136.9
Total Assets                      $ 278,399.4       $ 148,833.1             $ 13,505.1          $        (6.0)     $ 440,731.6
Liabilities and Net Position
 Military Retirement Benefits
 and Other Federal               $ 1,177,154.9      $ 510,286.8         $      2,839.4      $             0.0       $1,690,281.1
 Employment Benefits
 Other Liabilities                           1.9               122.9           2,591.6                  (72.0)            2,644.4
Total Liabilities                $ 1,177,156.8      $    510,409.7      $      5,431.0     $            (72.0)     $1,692,925.5
 Unexpended Appropriations       $           0.0    $            0.0    $           5.6     $             0.0      $            5.6
 Cumulative Results of
                                     (898,757.4)        (361,576.6)            8,068.5              (90,592.9)      (1,342,858.4)
 Operations
Total Liabilities and Net
                                 $ 278,399.4        $    148,833.1      $     13,505.1      $ (90,664.9)            $ 350,072.7
Position

Statement of Net Cost
 Program Costs                   $     73,004.0     $     17,336.1      $      2,510.2      $        (2,567.2)     $     90,283.1
 Less Earned Revenue                  (75,267.8)         (22,469.4)             (674.6)              94,121.9            (4,289.9)
 Net Program Costs                     (2,263.8)          (5,133.3)            1,835.6               91,554.7            85,993.2
Net Cost of Operations           $     (2,263.8)    $     (5,133.3)     $      1,835.6      $        91,554.7      $     85,993.2

Statement of Changes in Net Position
 Net Position Beginning of the
                                 $ (901,021.2)      $ (366,709.9)       $       8,043.0        $           0.0 $(1,259,688.1)
 Period
 Net Cost of Operations                 (2,263.8)          (5,133.3)            1,835.6               91,554.7            85,993.2
 Budgetary Financing Sources                  0.0                 0.0           1,973.7                  943.6              2,917.3
 Other Financing Sources                      0.0                 0.0            (107.0)                  18.2                (88.8)
Change in Net Position           $       2,263.8    $       5,133.3     $           31.1    $ (90,592.9) $              (83,164.7)
Net Position End of Period       $ (898,757.4)      $ (361,576.6)       $       8,074.1     $ (90,592.9) $(1,342,852.8)




ADDENDUM A                                                                                            Financial Information
                                                          69
Department of Defense Agency Financial Report for FY 2009


Earmarked Funds                                                                                               Dollars in Millions
                                                                              2008
                                                      Medicare-
                                   Military            Eligible            Other
                                  Retirement           Retiree           Earmarked         Eliminations                 Total
                                    Fund             Health Care           Funds
As of September 30                                      Fund
Balance Sheet
Assets
  Fund balance with Treasury      $         17.5     $            5.0     $    2,237.7      $         0.0           $     2,260.2
  Investments                          253,046.7          134,291.6            7,170.2                0.0               394,508.5
  Accounts and Interest
                                            24.5                 12.5            551.2               (5.8)                  582.4
  Receivable
  Other Assets                                0.0                 0.0          1,999.5                0.0                 1,999.5
Total Assets                      $    253,088.7     $ 134,309.1          $ 11,958.6        $        (5.8)          $ 399,350.6
Liabilities and Net Position
  Military Retirement Benefits
  and Other Federal               $ 1,154,108.1      $ 500,819.2         $     3,105.3      $         0.0        $1,658,032.6
  Employment Benefits
  Other Liabilities                           1.8             199.8              810.3              (85.7)                  926.2
Total Liabilities                 $1,154,109.9        $ 501,019.0        $     3,915.6      $       (85.7)       $1,658,958.8
  Unexpended Appropriations       $           0.0    $            0.0    $           4.9   $           0.0      $               4.9
  Cumulative Results of
                                      (901,021.2)        (366,709.9)           8,038.1          (86,232.0)      $(1,345,925.0)
  Operations
Total Liabilities and Net
                                  $ 253,088.7         $ 134,309.1        $    11,958.6      $ (86,317.7)         $ 313,038.7
Position

Statement of Net Cost
  Program Costs                   $ 171,077.5        $     (8,429.7)     $     2,252.9      $    (2,524.3)      $       162,376.4
  Less Earned Revenue                  (80,659.5)         (32,657.2)          (1,206.9)          89,991.0               (24,532.6)
  Net Program Costs                     90,418.0          (41,086.9)           1,046.0           87,466.7               137,843.8
Net Cost of Operations            $     90,418.0     $ (41,086.9)        $     1,046.0      $    87,466.7        $ 137,843.8

Statement of Changes in Net Position
  Net Position Beginning of the
                                  $ (810,603.2)      $ (407,796.8)       $      6,586.9     $           0.0     $(1,211,813.1)
  Period
  Net Cost of Operations                 90,418.0          (41,086.9)           1,046.0           87,466.7               137,843.8
  Budgetary Financing Sources                  0.0                 0.0          2,950.3            1,229.6                 4,179.9
  Other Financing Sources                      0.0                 0.0          (448.2)                5.1                 ( 443.1)
Change in Net Position            $     (90,418.0)   $      41,086.9     $      1,456.1     $ (86,232.0)         $ (134,107.0)
Net Position End of Period        $ (901,021.2)      $ (366,709.9)       $      8,043.0     $ (86,232.0)        $(1,345,920.1)




ADDENDUM A                                                                                        Financial Information
                                                            70
Department of Defense Agency Financial Report for FY 2009

Other Disclosures
The SFFAS No. 27, Identifying and Reporting Earmarked Funds, requires the disclosure of
Earmarked Funds separate from All Other Funds on the SCNP and Balance Sheet. Funds must
meet three criteria to be classified as earmarked: (1) a statute committing use of specifically-
identified revenues for designated purposes, (2) explicit authority to retain the revenues, and
(3) a requirement to account and report on the revenues. The Department’s earmarked funds
are either special or trust funds and use both receipt and expenditure accounts to report activity
to the U.S. Treasury. There have been no changes in legislation that significantly changed the
purposes of the funds.
The Total column is shown as consolidated and relates only to Earmarked Funds. The
Eliminations column includes eliminations associated with Earmarked Funds and excludes the
offsetting eliminations from All Other Funds. This exclusion causes assets to not equal liabilities
and net position in the note. However, the amounts in the Total column equal the amounts
reported for Earmarked Funds on the Balance Sheet.
The SFFAS No. 27 requires the presentation of gross amounts of Earmarked Funds separate
from All Other (nonearmarked) Funds. Cumulative Results of Operations ending balances for
Earmarked Funds on the SCNP do not agree with the Cumulative Results of Operations for
Earmarked Funds reported on the Balance Sheet because the Cumulative Results of
Operations on the Balance Sheet are presented net of eliminations, whereas the SCNP
presents Cumulative Results of Operations gross.
Military Retirement Fund, 10 United States Code (USC) 1461. The MRF accumulates funds in
order to finance, on an actuarially sound basis, the liabilities of the Department’s military
retirement and survivor benefit programs. Financing sources for the MRF are interest earnings on
Fund assets, monthly Department contributions, and annual contributions from the U.S. Treasury.
The monthly Department contributions are calculated as a percentage of basic pay. The
contribution from the U.S. Treasury represents the amortization of the unfunded liability for service
performed prior to October 1, 1984, plus the amortization of actuarial gains and losses that have
arisen since then. The U.S. Treasury annual contribution also includes the normal cost amount
for the concurrent receipt provisions of the FY 2004 National Defense Authorization Act.
Medicare-Eligible Retiree Health Care Fund, 10 USC 1111. The MERHCF accumulates funds
to finance, on an actuarially sound basis, liabilities of the Department and the uniformed
services health care programs for qualified Medicare-eligible beneficiaries. Financing sources
for MERHCF are provided primarily through an annual actuarial liability payment from the U.S.
Treasury, annual contributions from each Uniformed Service (Army, Navy, Air Force, Marine
Corps, U.S. Coast Guard, National Oceanic and Atmospheric Administration, and U.S. Public
Health Service) and interest earned from the Fund's investments.
Other Earmarked Funds
Special Recreation Use Fees, 16 USC 4061-6a note. The USACE is granted the authority to
charge and collect fair and equitable Special Recreation Use Fees at campgrounds located at
lakes or reservoirs that are under the jurisdiction of USACE. Types of allowable fees include
daily use fees, admission fees, recreational fees, annual pass fees, and other permit type fees.
The receipts are used for the operation and maintenance of the recreational sites.
Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines through
which debris flows in part or in whole to a body restrained by a dam or other work erected by the
California Debris Commission are required to pay an annual tax as determined by the
Commission. Taxes imposed under this code are collected and expended under the
supervision of USACE and the direction of the Department of the Army. The funds are used for

ADDENDUM A                                                                     Financial Information
                                                 71
Department of Defense Agency Financial Report for FY 2009
repayment of funds advanced by the Federal government or other agencies for construction,
restraining works, settling reservoirs, and maintenance.
Payments to States, Flood Control Act of 1954, 33 USC 701c-3. Seventy-five percent of all
funds received and deposited from the leasing of lands acquired by the United States for flood
control, navigation, and allied purposes (including the development of hydroelectric power) are
returned to the state in which the property is located. USACE collects lease receipts into a receipt
account. Funds are appropriated for the amount of receipts the following fiscal year. The funds
may be expended by the states for the benefit of public schools and public roads of the counties in
which such property is situated, or for defraying any of the expenses of county government.
Maintenance and Operation of Dams and Other Improvements of Navigable Waters, 16
USC 803(f) and 810. When a reservoir or other improvement is constructed by the U.S., the
Federal Energy Regulatory Commission (FERC) assesses charges against licensees directly
benefited. The statute requires all proceeds from any Indian reservation be placed to the credit of
the Indians of the reservation. All other charges arising from licenses, except those charges
established by the FERC for administrative reimbursement, are paid to the U.S. Treasury and
allocated for specific uses. The Army is allocated 50 percent of charges from all licenses, except
licenses for the occupancy and use of public lands and national forests. These funds are
deposited in a special fund and used for maintenance, operation, and improvement of dams and
other navigation structures that are owned by the United States, or in construction, maintenance,
or operation of headwater, or other improvements to navigable waters of the United States.
Fund for NonFederal Use of Disposal Facilities (for dredged material), 33 USC 2326. Any
dredged material disposal facility under the jurisdiction of, or managed by, the Secretary of the
Army may be used by a nonfederal interest if the Secretary determines that such use will not
reduce the availability of the facility for project purposes. Fees may be imposed to recover capital,
operation, and maintenance costs associated with such use. Any monies received through
collection of fees under this law shall be available to, and used by, the Secretary of the Army for
the operation and maintenance of the disposal facility from which the fees were collected.
South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund, Public Law 106-53 Sec. 603.
Yearly transfers are made from the General Fund of the U.S. Treasury to the Trust Fund for
investment purposes. Investment activity is managed by the Bureau of the Public Debt (BPD).
The BPD purchases and redeems nonmarketable market-based securities. Investments include
one-day certificates, bonds, and notes. When the fund reaches the aggregate amount of $108
million, withdrawals may be made by USACE for payment to the State of South Dakota. The
state uses the payments to fund annually-scheduled work for wildlife habitat restoration.
Costal Wetlands Restoration Trust Fund and Costal Wetlands Planning, Protection, and
Restoration Act, 16 USC 3951-3956. USACE (along with the Environmental Protection
Agency, and the Fish and Wildlife Service) is granted the authority to work with the State of
Louisiana to develop, review, evaluate, and approve a plan to achieve a goal of "no net loss of
wetlands" in coastal Louisiana. USACE is also responsible for allocating funds among the
named task force members. Federal contributions are established at 75 percent of project costs
or 85 percent if the state has an approved Coastal Wetlands Conservation Plan.
Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703.
Whenever any state or political subdivision offers to advance funds for a flood control project
duly adopted and authorized by law, the Secretary of the Army may, in his discretion, receive
such funds and expend them in the immediate prosecution of such work. The funding may be
used to construct, improve, and maintain levees, water outlets, flood control, debris removal,
rectification and enlargement of river channels, etc. in the course of flood control and river and
harbor maintenance.

ADDENDUM A                                                                     Financial Information
                                                 72
Department of Defense Agency Financial Report for FY 2009
Inland Waterways Trust Fund, 26 USC 9506. This law made the Inland Waterways Trust Fund
available for USACE expenditures for navigation, construction, and rehabilitation projects on
inland waterways. Collections for excise taxes from the public are made into the Trust Fund.
The collections are invested and investment activity is managed by the BPD. The BPD
purchases and redeems nonmarketable market-based securities. Investments include one-day
certificates, bonds, and notes.
Harbor Maintenance Trust Fund, 26 USC 9505. The USACE Civil Works mission is funded by
the Energy and Water Development Appropriations Act. The Water Resources Development
Act of 1986 covers a portion of USACE operations and maintenance costs for deep draft
navigation. The Harbor Maintenance Trust Fund is available for making expenditures to carry
out the functions specified in the Act and for the payment of all expenses of administration
incurred by the U.S. Treasury, USACE, and the Department of Commerce. Collections are
made into the Trust Fund from taxes collected from imports, domestics, passengers, and foreign
trade. The collections are invested and investment activity is managed by the BPD.
Foreign National Employees Separation Pay Account Trust Fund, 10 USC 1581. This fund
makes payments from amounts obligated by the Secretary of Defense that remain unexpended
for separation pay for foreign national employees of the Department. The foreign national
employees’ separation pay funded by Foreign Military Sales administrative funds is maintained
as a separate fund.
Defense Commissary Agency Surcharge Trust Fund, 10 USC 2685. This fund was
established as the repository for the surcharge on sales of commissary goods paid for by
authorized patrons to finance certain operating expenses and capital purchases of the
Commissary System, which are precluded by law from being paid with appropriated funds.
Most surcharge revenue is generated by the 5 percent surcharge applied to each sale. These
funds may be used to pay for commissary store-related information technology investments, to
purchase commissary equipment, to finance advance design modifications to prior year
projects, for both minor and major construction projects, and to maintain and repair commissary
facilities and equipment.
Education Benefit Fund, 10 USC 2006. This fund was established to finance, on an
actuarially sound basis, the liabilities of the Department’s education benefit programs for current
and former active duty, guard, and reserve members of the armed forces, and members of the
Coast Guard. Financing sources for the Education Benefit Fund are interest earnings on Fund
assets and monthly Department contributions.
Voluntary Separation Incentive Fund, 10 USC 1175. This fund was established to finance,
on an actuarially sound basis, the liabilities of the Department’s incentive program for early
separation from military service. Financing sources for the Voluntary Separation Incentive Fund
are interest earnings on Fund assets and annual Department contributions
Military Housing Privatization Initiative, Public Law 104-106, Section 2801. The MHPI
includes both direct loan and loan guarantee programs, is authorized by the National Defense
Authorization Act for FY 1996, and includes a series of authorities that allow the Department to
work with the private sector to renovate and build military family housing. The MHPI
accelerates the construction of new housing built to market standard and leverages private
sector capital with government dollars. The Department provides protection to the private
sector partner against specific risks, such as base closure or member deployment.
Armament Retooling and Manufacturing Support Initiative, 10 USC 4551-4555. The
Armament Retooling and Manufacturing Support Initiative is a loan guarantee program designed
to incentivize commercial use of the Army's inactive ammunition plants for businesses willing to


ADDENDUM A                                                                   Financial Information
                                                73
Department of Defense Agency Financial Report for FY 2009
locate to a government ammunition production facility. The production capacity of these
facilities is greater than current military requirements, however, this capacity may be needed in
the future. Revenue from property rentals are used to pay for the operation, maintenance and
environmental cleanup at the facilities.
Note 24. Fiduciary Activities

     Schedule of Fiduciary Activity                                                                Dollars in Millions

 As of September 30                                                                2009
 Fiduciary net assets, beginning of year                                                   $                   166.4
     Contributions                                                                                             264.6
     Investment earnings                                                                                           17.0
     Distributions to and on behalf of beneficiaries                                                          (260.6)
 Increase/(Decrease) in fiduciary net assets                                                $                      21.0
 Fiduciary net assets, end of period                                                        $                  187.4


 Schedule of Fiduciary Net Assets                                                           Dollars in Millions
 As of September 30                                                                2009
 Fiduciary Assets
     Cash and cash equivalents                                                                 $               187.4
 Total Fiduciary Net Assets                                                                    $               187.4


Fiduciary activities exist when the Department has collected, received, held, or made disposition
of assets on behalf of an individual or nonfederal entity. Fiduciary assets are not recognized on
the Balance Sheet.
Public Law 89-538 authorized the Department, through the Savings Deposit Program, to collect
voluntary contributions from members of the Armed Forces serving outside the United States or
its possessions in designated areas. These contributions and earned interest are deposited in
the U.S. Treasury on behalf of the members.
Note 25. Other Disclosures

Other Disclosures                                                                                  Dollars in Millions
                                                                  2009— Asset Category
                                       Land and
 As of September 30                                           Equipment           Other                    Total
                                       Buildings
Entity as Lessee – Operating Leases
    Future Payments Due
       Fiscal Year 2010                $        386.4         $        64.6   $       110.0            $       561.0
       Fiscal Year 2011                         359.2                  66.1           114.3                    539.6
       Fiscal Year 2012                         337.3                  23.4           118.8                    479.5
       Fiscal Year 2013                         321.2                   5.2           119.1                    445.5
       Fiscal Year 2014                         319.8                   1.0           123.5                    444.3
       After 5 Years                            770.8                   1.0               0.0                  771.8
    Total Future Lease Payments
                                       $       2,494.7        $       161.3   $       585.7        $          3,241.7
    Due


ADDENDUM A                                                                                Financial Information
                                                         74
Department of Defense Agency Financial Report for FY 2009
Operating leases are leases that do not transfer all the benefits and risk of ownership of capital
leases. Payments are charged as expenses over the lease term. Office space is the largest
component of land and building leases. Other leases are generally one-year leases that are not
building or equipment leases. Future year cost projections use the Consumer Price Index.
Note 26. Restatements
The Department restated its financial statements as of September 30, 2008 to correct errors in
assets, liabilities, gross costs, and net position identified during ongoing audit readiness efforts.
Most errors were discovered as a result of data cleansing and reconciliation efforts during
preparation for migration to new accounting and logistics systems and during data reconciliation
following FY 2009 and FY 2008 migration to Enterprise Resource Planning (ERP) systems. The
most material errors related to recognition of payments for shipbuilding procurement costs. A
$1.7 billion adjustment not resulting in restatement was also made for a change in accounting
principle to revalue a portion of the Department’s inventory to moving average cost with the
ongoing implementation of the Logistics Modernization Program ERP system.
Adjustment #1: The Department made corrections to recognize $26.9 billion in assets for
contract financing payments of shipbuilding procurement during the period October 1, 2005
through September 30, 2008. During this period shipbuilding payments meeting the definition of
contract financing payments were incorrectly expensed due to limitations within the
Department’s legacy accounting and reporting systems.            The errors resulted in the
understatement of Other Assets (Nonfederal), Unexpended Appropriations, and Undelivered
Orders – Obligations, Prepaid/Advanced; and the overstatement of Net Cost, Expended
Appropriations, and Delivered Orders – Obligations, Paid in the periods the payments were
made.     The corrections resulted in the restatement of the FY 2008 beginning balance of
Cumulative Results of Operations and Unexpended Appropriation for shipbuilding payments
prior to FY 2008 of $19.7 billion and the restatement to reduce FY 2008 net cost by $7.2 billion
for payments that had been expensed in FY 2008. This restatement corrected Other Assets,
Nonfederal on the Balance Sheet; Gross Costs on the Statement of Net Cost; Undelivered
Orders – Obligations, Prepaid/Advanced and Delivered Orders – Obligations, Paid on the
Statement of Budgetary Resources; and Cumulative Results of Operation and Unexpended
Appropriations on the Statement of Changes in Net Position. Related notes restated were:
Note 6, Other Assets and Note 18, General Disclosures Related to the Statement of Net Cost.
Adjustment #2: During the migration to another capital asset system, the Department
identified and restated $9.1 billion in military equipment valued incorrectly in the legacy system.
This restatement decreased General PP&E on the Balance Sheet and Cumulative Results of
Operations on the SCNP. Note 10, General PP&E was also restated.
Adjustment #3: The Department identified $3.4 billion in Inventory and Related Property, Net
overstatements resulting from the incorrect posting of inventory in transit which also understated
net cost of operations. The corrections restated the FY 2008 beginning balance of Cumulative
Results of Operations for incorrect postings prior to FY 2008 of $3.2 billion and the FY 2008 net
cost by $233.0 million for incorrect postings in FY 2008. The Department restated Inventory
and Related Property, Net on the Balance Sheet and Cumulative Results of Operations on the
Statement of Changes in Net Position. The related notes restated were: Note 9, Inventory and
Related Property, Net and Note 18, General Disclosures Related to the Statement of Net Cost.
Adjustment #4: During the migration to another ERP system, the Department identified and
restated $1.5 billion in gains that were incorrectly recorded as inventory allowances due to
legacy system deficiencies. This restatement corrected Inventory on the Balance Sheet and
Other Financing Sources and Cumulative Results of Operations on the Statement of Changes in
Net Position. Note 9, Inventory and Related Property was also restated.

ADDENDUM A                                                                     Financial Information
                                                 75
Department of Defense Agency Financial Report for FY 2009
Adjustment #5: The Department made corrections to recognize $1.1 billion in Construction-in-
Progress payments made for the Pentagon Reservation Maintenance Fund through
September 30, 2008. During this period payments were expensed in error. The errors resulted
in the understatement of PP&E and the overstatement of Net Cost in the periods the payments
were made. The corrections restated the FY 2008 beginning balance of Cumulative Results of
Operations for payments prior to FY 2008 of $1.1 billion and the FY 2008 net cost by $27.9
million for payments expensed in FY 2008. This corrected General PP&E on the Balance
Sheet; Gross Costs on the Statement of Net Cost; and Cumulative Results of Operation on the
Statement of Changes in Net Position. Related notes restated were: Note 10, General Property,
Plant and Equipment and Note 18, General Disclosures Related to the Statement of Net Cost.
Adjustment #6: While migrating from a manual to an automated interface between budget
execution and financial statement reporting systems, the Department identified $697.7 million in
errors in ending FY 2008 account balances. To correct the errors, the Department restated
Accounts Receivable, General PP&E, Other Assets, Accounts Payable and Other Liabilities
(Nonfederal and Intragovernmental) on the Balance Sheet; and Unexpended Appropriations and
Cumulative Results of Operation on the Statement of Changes in Net Position. Related notes
restated were: Note 2, Nonentity Assets; Note 5, Accounts Receivable; Note 6, Other Assets;
Note 10, General Property, Plant, and Equipment; Note 12, Accounts Payable; and Note 15,
Other Liabilities.
Adjustment #7: The Department identified $494.7 million overstatement in Inventory and
Related Property, Net resulting from the incorrect posting of inventory in transit. The
Department restated Inventory and Related Property, Net on the Balance Sheet and Cumulative
Results of Operations on the Statement of Changes in Net Position. Note 9, Inventory and
Related Property was also restated.
Adjustment #8: The Department recognized a $1.1 billion prior period adjustment to correct
understated Accounts Payable (Nonfederal) and related expenses for FY 2008.           The
Department also corrected the methodology for reporting accruals for undistributed
disbursements to prevent the understatement, beginning in FY 2009. This adjustment
increased Accounts Payable, (Nonfederal), Net Cost, Expended Appropriations, and Delivered
Orders - Obligations, Unpaid; and decreased Unexpended Appropriations, and Undelivered
Orders - Obligations, Unpaid. Related notes restated were: Note 12, Accounts Payable and
Note 18, General Disclosures Related to the Statement of Net Cost.
Effect on Comparative Balances
 FY 2009 Statement of Changes in Net Position                                     Dollars in Billions
 Cumulative Results of Operations                                                         FY 2009
 Changes in Accounting Principles (No restatement)            $                                  1.7
 Correction of Errors (+/-) Adjustment #2                                                      (9.1)
 Correction of Errors (+/-) Adjustment #3                                                      (3.4)
 Correction of Errors (+/-) Adjustment #4                                                        1.5
 Correction of Errors (+/-) Adjustment #5                                                        1.1
 Correction of Errors (+/-) Adjustment #6                                                      (0.1)
 Correction of Errors (+/-) Adjustment #7                                                      (0.5)
 Beginning balance adjustments                                $                               (8.8)




ADDENDUM A                                                                 Financial Information
                                                     76
Department of Defense Agency Financial Report for FY 2009

FY 2009 Statement of Changes in Net Position                                 Dollars in Billions
Unexpended Appropriations
Correction of Errors – Adjustment #1                             $                        27.2
Correction of Errors – Adjustment #8                                                      (1.1)
Beginning balance adjustments                                    $                        26.1



Effect on Comparative Balances
FY 2008 Balance Sheet                                                        Dollars in Billions
Inventory – Adjustment #3                                    $                        (3.4)

Inventory – Adjustment #4                                                               1.5

Inventory – Adjustment #7                                                             (0.5)

General PP&E Net – Adjustment #2                                                      (9.1)

General PP&E Net – Adjustment #5                                                        1.1

Other Assets (Nonfederal) – Adjustment #1                                             26.9

Total Assets                                                 $                        16.5

Other Liabilities (Intergovernmental) – Adjustment #6        $                          0.3

Accounts Payable (Nonfederal) – Adjustment #6                                         (0.5)

Accounts Payable (Nonfederal) – Adjustment #8                                           1.1

Total Liabilities                                            $                          0.9

Net Position                                                 $                        15.6

FY 2008 Statement of Net Cost                                            Dollars in Billions

Gross Costs – Adjustment #1                                  $                        (7.2)

Gross Costs – Adjustment #3                                                             0.2

Gross Costs – Adjustment #8                                                             1.1

Net Cost of Operations                                       $                       ( 5.9)

FY 2008 Statement of Changes in Net Position                             Dollars in Billions

Cumulative Results of Operations

Correction of Errors (+/-) Adjustment #2                     $                        (9.1)

Correction of Errors (+/-) Adjustment #3                                              (3.2)

Correction of Errors (+/-) Adjustment #4                                                0.7

Correction of Errors (+/-) Adjustment #5                                                1.1

Correction of Errors (+/-) Adjustment #6                                              (0.1)

Budgetary Financing Sources:

   Appropriations used – Adjustment #1                       $                        (7.2)

   Appropriations used – Adjustment #8                                                  1.1



ADDENDUM A                                                           Financial Information
                                                        77
Department of Defense Agency Financial Report for FY 2009

FY 2008 Balance Sheet                                              Dollars in Billions
Other Financing Sources:

   Other (+/-) – Adjustment #4                                                0.8

   Other (+/-) – Adjustment #7                                              (0.5)

Total Financing Sources                              $                      (5.8)

Net Cost of Operations Adjustment #1                 $                      (7.2)

Net Cost of Operations Adjustment #3                                          0.2

Net Cost of Operations Adjustment #8                                          1.1

Net Change                                           $                        0.1

Cumulative Results                                   $                    (10.5)

Unexpended Appropriations

Correction of Errors – Adjustment #1                 $                      19.7

Correction of Errors – Adjustment #6                                          0.3

Budgetary Financing Sources:

   Appropriations Used – Adjustment #1                                        7.2

   Appropriations Used – Adjustment #8                                      (1.1)

Total Budgetary Financing Sources                    $                        6.1

Unexpended Appropriations                            $                      26.1

Net Position                                         $                      15.6




ADDENDUM A                                                  Financial Information
                                         78
Department of Defense Agency Financial Report for FY 2009

Required Supplementary Stewardship Information
Federal financial reporting requires DoD to report on its stewardship over certain resources that
cannot be measured in traditional financial reports. These resources do not meet the criteria for
assets and liabilities required to be reported in the financial statements, but are important to
understand the operations and financial condition of DoD at the date of the financial statements
and in subsequent periods.
The Department’s stewardship investments are comprised of, and are measured in terms of,
expenses incurred for: 1) federally-financed, but not federally-owned, physical property
(Nonfederal Physical Property); and 2) federally-financed research and development (Research
and Development (R&D)). Information on additional reporting requirements for Nonfederal
Physical Property and R&D follows.

NONFEDERAL PHYSICAL PROPERTY
The Nonfederal Physical Property investments support the purchase, construction, or major
renovation of physical property owned by state and local governments. In addition, Nonfederal
Physical Property investments include federally-owned physical property transferred to state
and local governments.


 Nonfederal Physical Property
 Department of Defense Consolidated — Nonfederal Physical Property
 Yearly Investments in State and Local Governments
 For Fiscal Years 2009 through 2005                                                               Dollars in Millions
              Categories                               2009          2008       2007       FY 2006       FY 2005
 Transferred Assets:
     National Defense Mission Related                $ 1224.7      $ 1,169.2   $ 1,051.0   $ 1,295.5    $ 1,394.7
 Funded Assets:
     National Defense Mission Related                     26.7          19.6         2.8         8.5          8.3
 Total                                               $ 1,251.4     $ 1,188.8   $ 1,053.8   $ 1,304.0    $ 1,403.0


INVESTMENTS IN RESEARCH AND DEVELOPMENT
Investment values included in this report are based on R&D expenses. The R&D programs are
classified in the following categories: Basic Research, Applied Research, and Development.
The amounts reported in the Investments in R&D table show outlays from FY 2005 – FY 2009
for all DoD Components. The definition for each type of R&D Category and Subcategories are
explained below.
Basic Research is the systematic study to gain knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without specific applications, processes, or
products in mind. Basic Research involves the gathering of a fuller knowledge or understanding
of the subject under study. Major outputs are scientific studies and research papers.
Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the practical
application of such knowledge or understanding for the purpose of meeting a recognized need.
This research points toward specific military needs with a view toward developing and
evaluating the feasibility and practicability of proposed solutions and determining their
parameters. Major outputs are scientific studies, investigations, and research papers, hardware

ADDENDUM A                                                                                 Financial Information
                                                              79
Department of Defense Agency Financial Report for FY 2009
components, software codes, and limited construction of, or part of, a weapon system, to
include non-system-specific development efforts.
Development takes what has been discovered or learned from basic and applied research and
uses it to establish technological feasibility, assessment of operability, and production capability.
Development consists of the five stages defined in the Investments in R&D table.
Advanced Technology Development is the systematic use of the knowledge or understanding
gained from research and directed toward proof of technological feasibility and assessment of
producibility rather than directed toward the development of hardware for service use. It
employs demonstration activities intended to prove or test a technology or method.
Advanced Component Development and Prototypes evaluates integrated technologies in an
operating environment as realistic as possible to assess the performance or cost reduction
potential of advanced technology. Programs in this phase are generally system specific. Major
outputs of Advanced Component Development and Prototypes are hardware and software
components and complete weapon systems ready for operational and developmental testing
and field use.
System Development and Demonstration concludes the program or project and prepares it for
production. It consists primarily of preproduction efforts, such as logistics and repair studies.
Major outputs are weapons systems finalized for complete operational and developmental
testing.
Research, Development, Test, and Evaluation Management Support is support for installations
and operations for general research and development use. This category includes costs
associated with test ranges, military construction maintenance support for laboratories,
operation and maintenance of test aircraft and ships, and studies and analyses in support of the
Research and Development program.
Operational Systems Development is concerned with development projects in support of
programs or upgrades still in engineering and manufacturing development stages which have
received approval for production and production funds have been budgeted in subsequent fiscal
years.




ADDENDUM A                                                                     Financial Information
                                                 80
Department of Defense Agency Financial Report for FY 2009

Investments in Research and Development (R&D)
Department of Defense Consolidated
Yearly Investments in Research and Development
For the Current and Four Preceding Fiscal Years                                        Dollars in Millions
       Categories                   2009          2008        2007        FY 2006             FY 2005
Basic Research                       $ 821.0      $ 1,346.4   $ 1,445.7    $ 1,408.5         $ 1,447.3
Applied Research                      1,944.0       3,812.3     4,647.1      4,756.9            4,569.9
Development
     Advanced Technology
                                      2,263.2       5,977.9     6,019.7      5,737.4            5,795.2
     Development
     Advanced Component
     Development and                 12,148.3      15,410.6    14,109.6     11,906.9           12,793.3
     Prototypes
     System Development
                                     21,501.9      18,052.9    16,737.8     13,209.8           12,253.1
     and Demonstration
     Research,
     Development, Test
                                      5,141.3       5,471.0     4,705.4      3,736.0            3,590.6
     and Evaluation
     Management Support
     Operational Systems
                                     42,450.6      20,246.7    13,525.1      5,509.8            5,334.6
     Development
Totals:                            $86,270.3      $70,317.8   $61,200.4    $46,265.3         $45,784.0




ADDENDUM A                                                                     Financial Information
                                                      81
Department of Defense Agency Financial Report for FY 2009

Required Supplementary Information
REAL PROPERTY DEFERRED MAINTENANCE
This section includes the deferred maintenance information and Statement of Disaggregated
Budgetary Resources.
 Real Property Deferred Maintenance and Repair
 For Fiscal Year Ended September 30, 2009                                                  Dollars in Millions
            Property Type                                      Current Fiscal Year (CFY)
                                              1. Plant           2. Required Work        3. Percentage
                                            Replacement        (Deferred Maintenance
                                               Value                  & Repair)
      1. Category 1                                $557,465                   $68,048                   12%
      2. Category 2                                  $47,238                   $7,859                   17%
      3. Category 3                                  $43,871                   $9,249                   21%

The deferred maintenance amount is based on facility Q-ratings found in the Department’s real
property inventory. Q-ratings represent work needed to bring a facility to a fully serviceable
condition with no repair needs. The reported deferred maintenance is the difference between
the facility Q-rating and the target Q-rating that represents the acceptable operating condition
established by each Component within the Department. The percentage column reflects the
percent of total plant replacement value for each category represented by deferred maintenance.
Facility Categories are as follows:
• Category 1: Buildings, Structures, and Utilities that are enduring and required to support an
   ongoing mission, including multi-use Heritage Assets.
• Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned
   for replacement or disposal, including multi-use Heritage Assets.
• Category 3: Buildings, Structures, and Utilities that are Heritage Assets.

MILITARY EQUIPMENT DEFERRED MAINTENANCE
Depot maintenance requirements for military equipment are developed during the annual
budget process. The table below shows the deferred unfunded requirements for the depot
maintenance program.

Military Equipment Deferred Maintenance
For Fiscal Year Ended September 30, 2009                                                   Dollars in Million

Major Categories                                                                        Amounts
1.   Aircraft                                                                            $1,180.3
2.   Automotive Equipment                                                                  $102.3
3.   Combat Vehicles                                                                       $504.3
4.   Construction Equipment                                                                 $49.6
5. Electronics and Communications Systems                                                  $433.3
6. Missiles                                                                                $116.8
7. Ships                                                                                   $187.1
8. Ordnance Weapons and Munitions                                                           $65.5
9. General Purpose Equipment                                                               $446.7
10. All Other Items Not Identified to above Categories                                      $83.7
Total                                                                                    $3,169.6


ADDENDUM A                                                                          Financial Information
                                                         82
Department of Defense Agency Financial Report for FY 2009
                                                                                                                                                     2009
Statement Of Disaggregated Budgetary
                                                                       Medicare-
Resources
                                                                        Eligible         Research,                                                                            Military
For the Years Ended September 30, 2009 and 2008    Military             Retiree         Development,                     Operation                                          Construction/    Working
Dollars in Millions                               Retirement          Health Care         Test and       Civil              and                              Military          Family        Capital                               2009            2008
                                                    Fund                 Fund            Evaluation     Works           Maintenance Procurement             Personnel         Housing         Funds               Other          Combined        Combined
Budgetary Financing Account
Budgetary Resources
Unobligated balance, brought forward, October 1        $        0.0      $        0.0     $ 16,505.0    $ 11,692.7        $ 10,628.8      $    65,031.0     $      819.5      $   11,379.1   $     7,419.1    $    12,194.6      $ 135,669.8     $ 111,980.6
Recoveries of prior year unpaid obligations                     0.0               0.0         3,871.7          689.4        22,711.1           11,566.7          15,712.1          3,541.4         3,406.8          1,773.7          63,272.9        49,744.1
Budget authority

 Appropriation                                             75,145.3          22,396.7        78,227.3       17,012.8       268,820.3          127,678.6         144,786.6         18,268.4         2,351.0        100,877.3         855,564.3       859,403.8
 Contract authority                                             0.0               0.0             0.0            0.0                0.0             0.0               0.0              0.0        67,626.3                 0.0       67,626.3        78,927.8
 Spending authority from offsetting collections

   Earned

    Collected                                                   0.0               0.0         9,602.2       11,886.1        26,850.3            3,496.6           1,019.7          7,480.3       116,807.2          1,001.1         178,143.5       174,493.0
    Change in receivables from Federal sources                  0.0               0.0          420.8           (83.8)           1,023.6            60.7              22.1           (12.4)          (147.8)           (94.8)          1,188.4           791.8
   Change in unfilled customer orders

     Advance received                                           0.0               0.0          246.5           259.2                7.7          (44.3)               0.0           282.3            104.3            175.3           1,031.0           753.2
     Without advance from Federal sources                       0.0               0.0         (749.9)       (2,080.9)            183.4           316.2                7.4           418.8          1,749.6                67.1          (88.3)        5,679.1
   Expenditure transfers from trust funds                       0.0               0.0             0.0          862.5                0.0             0.0               0.0              0.0             0.0                 0.0          862.5           766.0
   Subtotal                                                75,145.3          22,396.7        87,746.9       27,855.9       296,885.3          131,507.8         145,835.8         26,437.4       188,490.6        102,026.0       1,104,327.7     1,120,814.7
Nonexpenditure transfers, net, anticipated
and actual                                                      0.0               0.0         (120.8)          170.5            4,463.3         4,957.3           1,212.3          (325.9)        (1,274.3)        (9,098.1)            (15.7)         (264.1)
Temporarily not available pursuant to
Public Law                                             (24,841.3)         (14,106.1)              0.0          (10.0)               0.0             0.0               0.0              0.0             0.0          (233.0)         (39,190.4)      (59,949.4)
Permanently not available                                       0.0               0.0       (2,269.2)           (4.1)       (7,708.5)         (2,378.7)           (628.8)          (229.5)       (71,664.7)        (1,085.8)        (85,969.3)      (85,156.8)
Total Budgetary Resources                          $       50,304.0      $    8,290.6    $ 105,733.6    $   40,394.4     $ 326,980.0      $ 210,684.1       $ 162,950.9       $ 40,802.5     $ 126,377.5      $ 105,577.4        $ 1,178,095.0   $ 1,137,169.1




ADDENDUM A                                                                                                                                                                                                                             Financial Information
                                                                                                                           83
Department of Defense Agency Financial Report for FY 2009
                                                                                                                                                   2009
Status Of Budgetary Resources                                        Medicare-
For the Years Ended September 30, 2009 and 2008
                                                                      Eligible          Research,                                                                          Military
                                                   Military           Retiree          Development,                      Operation                                       Construction/    Working
Dollars in Millions                               Retirement        Health Care          Test and                           and                            Military         Family        Capital                           2009           2008
                                                    Fund               Fund             Evaluation      Civil Works     Maintenance Procurement           Personnel        Housing         Funds           Other          Combined       Combined
Obligations incurred:
 Direct                                            $    50,304.0       $ 8,290.6         $ 80,445.6       $ 12,428.7     $ 285,501.9    $ 142,182.7       $ 160,105.4       $ 15,229.1      $ 1,573.1     $ 92,835.1      $ 848,896.2    $ 811,662.0

 Reimbursable                                                0.0                0.0         10,480.0        10,621.2        28,343.5         3,379.9          1,052.2         10,361.4      117,792.6        1,240.8        183,271.6      189,837.4

  Subtotal                                              50,304.0            8,290.6         90,925.6        23,049.9       313,845.4       145,562.6        161,157.6         25,590.5      119,365.7       94,075.9       1,032,167.8    1,001,499.4

Unobligated balance:

 Apportioned                                                 0.0                0.0         13,450.4        16,266.7         4,692.3        63,530.4            523.7         14,788.5        5,149.2        9,647.4        128,048.6      120,047.8

 Exempt from apportionment                                   0.0                0.0              0.0         1,077.7              0.0             0.0              0.0             0.0        1,886.0          409.8           3,373.5        1,060.7

 Subtotal                                                    0.0                0.0         13,450.4        17,344.4         4,692.3        63,530.4            523.7         14,788.5        7,035.2       10,057.2        131,422.1      121,108.5

Unobligated balance not available                            0.0                0.0          1,357.6             0.1         8,442.3         1,591.1          1,269.6            423.5          (23.4)       1,444.3          14,505.1       14,561.2

Total status of budgetary resources                     50,304.0       $ 8,290.6        $ 105,733.6      $ 40,394.4      $ 326,980.0    $ 210,684.1       $ 162,950.9       $ 40,802.5    $ 126,377.5    $ 105,577.4      $1,178,095.0   $1,137,169.1

Change in Obligated Balance:

Obligated balance, net
 Unpaid obligations, brought forward,
                                                   $     3,359.2       $      240.1      $ 40,306.8        $ 9,392.9     $ 122,107.1    $ 148,367.0         $ 8,658.8       $ 21,547.8     $ 58,421.2     $ 19,717.6      $ 432,118.5    $ 372,558.6
 October 1
 Less: Uncollected customer payments from
                                                             0.0                0.0         (5,473.0)       (5,418.0)      (13,021.2)       (3,603.1)            38.6         (9,005.4)     (29,997.5)        (122.6)       (66,602.2)     (60,131.3)
 Federal sources, brought forward, October 1
 Total unpaid obligated balance                        $ 3,359.2           $ 240.1       $ 34,833.8        $ 3,974.9     $ 109,085.9    $ 144,763.9         $ 8,697.4       $ 12,542.4     $ 28,423.7     $ 19,595.0      $ 365,516.3    $ 312,427.3
Obligations incurred net                                50,304.0            8,290.6         90,925.6        23,049.9       313,845.4       145,562.6        161,157.6         25,590.5      119,365.7       94,075.9       1,032,167.8    1,001,499.4
Less: Gross outlays                                    (49,964.5)          (8,357.6)       (84,681.5)      (20,453.8)     (281,916.2)     (128,776.9)      (144,622.1)       (17,339.0)    (118,287.4)     (92,541.6)      (946,940.6)    (892,195.4)
Obligated balance transferred, net                           0.0                0.0              0.0             0.0              0.0             0.0              0.0             0.0             0.0              0.0            0.0            0.0
Less: Recoveries of prior year unpaid
                                                             0.0                0.0         (3,871.7)         (689.4)      (22,711.1)      (11,566.7)       (15,712.1)        (3,541.4)      (3,406.8)      (1,773.7)       (63,272.9)     (49,744.1)
obligations, actual
Change in uncollected customer payments
                                                             0.0                0.0            329.1        (2,164.7)       (1,207.1)         (376.9)           (29.5)          (406.5)      (1,601.8)             28.0      (1,100.0)      (6,470.9)
from Federal sources
Obligated balance, net, end of period
 Unpaid obligations                                      3,698.7              173.1         42,679.2        11,299.6       131,325.2       153,586.0          9,482.2         26,257.9       56,092.7       19,478.2        454,072.8      432,118.5

 Less: Uncollected customer payments
                                                             0.0                0.0         (5,143.9)       (3,253.3)      (14,228.3)                              9.1        (9,411.9)     (31,599.3)         (94.6)       (67,702.2)     (66,602.2)
 (+/-) from Federal sources                                                                                                                 (3,980.0)
 Total, unpaid obligated balance, net,
                                                       $ 3,698.7           $ 173.1       $ 37,535.3        $ 8,046.3     $ 117,096.9    $ 149,606.0         $ 9,491.3       $ 16,846.0     $ 24,493.4     $ 19,383.6      $ 386,370.6    $ 365,516.3
 end of period
Net
Net Outlays:
 Gross outlays                                     $ 49,964.5          $ 8,357.6         $ 84,681.5       $ 20,453.8     $ 281,916.2    $ 128,776.9       $ 144,622.1       $ 17,339.0    $ 118,287.4     $ 92,541.6      $ 946,940.6    $ 892,195.4
 Less: Offsetting collections                                0.0                0.0         (9,848.7)      (13,007.8)      (26,858.0)       (3,452.3)        (1,019.7)        (7,762.6)    (116,911.5)      (1,176.5)      (180,037.1)    (176,012.2)
 Less: Distributed Offsetting receipts                 (51,125.0)      (11,752.4)                0.0          (583.2)             0.0             0.0              0.0             0.0             0.0      (2,451.5)       (65,912.1)     (70,247.6)
 Net Outlays                                       $ (1,160.5)       $ (3,394.8)         $ 74,832.8        $ 6,862.8     $ 255,058.2    $ 125,324.6       $ 143,602.4        $ 9,576.4      $ 1,375.9     $ 88,913.6      $ 700,991.4    $ 645,935.6




ADDENDUM A                                                                                                                                                                                                                     Financial Information
                                                                                                                           84
Department of Defense Agency Financial Report for FY 2009

Combined Statement Of Budgetary                                     Non Budgetary
Resources
For the Years Ended September 30, 2009 and 2008
                                                  Other             2009 Combined           2008 Combined
Dollars in Millions
Non Budgetary Financing Accounts
Budgetary Resources
Unobligated balance, brought forward, October 1        $    26.3               $    26.3           $ 25.5
Recoveries of prior year unpaid obligations                 47.5                    47.5               0.0
Budget authority

 Borrowing authority                                        58.4                    58.4             130.0
 Spending authority from offsetting collections

  Earned

   Collected                                                45.1                    45.1              53.9
  Change in unfilled customer orders

    Without advance from Federal sources                   (10.8)                  (10.8)             12.6
   Subtotal                                                 92.7                    92.7             196.5
Permanently not available                                   (0.1)                   (0.1)           (27.6)
Total Budgetary Resources                          $       166.4           $       166.4          $ 194.4




ADDENDUM A                                                                            Financial Information
                                                  85
Department of Defense Agency Financial Report for FY 2009

Statement of Disaggregated                                Non Budgetary
Budgetary Resources
For the Years Ended September 30, 2009
and 2008                                        Other     2009 Combined      2008 Combined
Dollars in Millions
Non Budgetary Financing Accounts
Obligations incurred:
 Direct                                        $ 142.7       $ 142.7             $ 168.1
 Subtotal                                      $ 142.7       $ 142.7             $ 168.1
Unobligated balance:
 Apportioned                                        0.3           0.3                 0.3
 Subtotal                                           0.3           0.3                 0.3
Unobligated balance not available                 23.4           23.4                26.0
Total status of budgetary resources            $ 166.4        $ 166.4             $ 194.4
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
 October 1                                      $ 872.9       $ 872.9             $ 768.0
 Less: Uncollected customer payments from
 Federal sources, brought forward, October 1    (143.0)       (143.0)              (130.4)
 Total unpaid obligated balance                $ 729.9        $ 729.9             $ 637.6
Obligations incurred net                         142.7          142.7               168.1
Less: Gross outlays                             (197.7)       (197.7)               (63.2)
Less: Recoveries of prior year unpaid
obligations, actual                              (47.5)        (47.5)                 0.0
Change in uncollected customer payments
from Federal sources                              10.8           10.8               (12.6)
Obligated balance, net, end of period
 Unpaid obligations                              770.4          770.4               872.9
 Less: Uncollected customer payments
 (+/-) from Federal sources                     (132.2)       (132.2)              (143.0)
 Total, unpaid obligated balance, net, end
                                               $ 638.2        $ 638.2             $ 729.9
 of period
Net
Net Outlays:
 Gross outlays                                 $ 197.7        $ 197.7              $ 63.2
 Less: Offsetting collections                    (45.1)        (45.1)               (53.9)
 Net Outlays                                   $ 152.6        $ 152.6              $ 9.3




ADDENDUM A                                                                Financial Information
                                                  86
           WELCOME TO THE
        DEPARTMENT OF DEFENSE
          We are interested in your feedback
         regarding the content of this report.

       Please feel free to send your comments
       or requests for copies of this report to

                  DoDAFR@osd.mil
                          or
         United States Department of Defense
Office of the Under Secretary of Defense (Comptroller)
                1100 Defense Pentagon
              Washington, DC 20301-1100
        You may also view this document at:
        www.defenselink.mil/comptroller/afr
